dod report no. d-2011-095                  dos report no. Aud/cG-11-42

              A Joint Audit by the inspectors GenerAl of

                       depArtment of stAte And

                        depArtment of defense





     AfGhAn nAtionAl police trAininG proGrAm: 

       lessons leArned durinG the trAnsition of

               contrAct AdministrAtion





                                        AuGust 15, 2011
                                  (Public Law 111-383, Section 1235)
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932. You may
also obtain a copy from the Web site of the Department of State, Office of Inspector
General at http://oig.state.gov or by emailing a request to OIG-Reports@state.gov.


Suggestions for Audits
To suggest or request audits, contact the Department of Defense Office of the Deputy
Inspector General for Auditing by phone (703) 604-9142 (DSN 664-9142), by fax
(703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ABP                   Afghan Border Police
ANP                   Afghan National Police
AQM                   Office of Acquisitions Management
CNTPO                 Counter-Narcoterrorism Technology Program Office
COR                   Contracting Officer’s Representative
CSTC-A                Combined Security Transition Command-Afghanistan
CTAG-P                Combined Training Advisory Group-Police
DCAA                  Defense Contract Audit Agency
DCMA                  Defense Contract Management Agency
DOS                   Department of State
GAO                   U.S. Government Accountability Office
IJC                   International Security Assistance Force Joint Command
INL                   Bureau of International Narcotics and Law Enforcement Affairs
MOA                   Memorandum of Agreement
MoI                   Ministry of Interior
NTM-A                 North Atlantic Treaty Organization Training
                         Mission-Afghanistan
SOW                   Statement of Work
TPSO                  Training Program Support Office
USTC                  U. S. Training Center
                                      INSPECTORS GENERAL

                 Department of Defense                     Department of State
                 400 Army Navy Drive                       2201 C Street N.W.
                 Arlington, Virginia 22202                 Suite 8100, SA-3
                                                           Washington, DC 20522



                                                                                        August 15, 2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR POLICY
               ASSISTANT SECRETARY OF STATE FOR ADMINISTRATION
               COMMANDER, U.S. FORCES-AFGHANISTAN
               COMMANDER, NORTH ATLANTIC TREATY ORGANIZATION
                 TRAINING MISSION-AFGHANISTAN/COMBINED SECURITY
                 TRANSITION COMMAND-AFGHANISTAN
               EXECUTIVE DIRECTOR, DEPARTMENT OF STATE BUREAU OF
                 INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT
                 AFFAIRS
               DIRECTOR, DEFENSE CONTRACT MANAGEMENT AGENCY

SUBJECT:	 Afghan National Police Training Program: Lessons Learned During the Transition of
          Contract Administration (Report No. D-2011-095 and AUD/CG-11-42)

We are providing this report for review and comment. We conducted this audit in response to a
requirement in the FY 2011 National Defense Authorization Act. In 2005, DoD began to assume the
lead role on behalf of the United States for reforming the Afghan National Police (ANP). In 2006, DoD
assumed responsibility for funding the ANP training program, and the Department of State (DOS)
continued to direct and provide oversight of the contracted civilian advisors, mentors, and trainers. In
August 2009, DoD and DOS agreed to transfer the ANP training program contract administration from
DOS to DoD. Despite a commitment to the Commission on Wartime Contracting in Iraq and
Afghanistan to ensure a “seamless” transition, DoD and DOS officials did not conduct sufficient
planning to include developing a comprehensive transition plan or a memorandum of agreement.
Additionally, DoD did not have the oversight personnel in place to adequately monitor whether the
contractor was performing its contractual obligations and achieving the goals of the Ministry of
Interior/ANP training program.

DoD Directive 7650.3 requires that recommendations be resolved promptly. We considered
management comments on a draft of this report when preparing the final report. Based on management
comments, we revised and redirected draft Recommendation A.1. We request comments from the
Under Secretary of Defense (Policy) and the Assistant Secretary of State for Administration on
Recommendation A.1 by September 14, 2011. We also revised Recommendation A.2.

Combined Security Transition Command-Afghanistan comments to Recommendations A.2, B.1.a-b, and
B.2.a-d were responsive. No additional comments are required. Defense Contract Management Agency
comments on Recommendation B.3.a-b were responsive, and no additional comments are required.

DOS Bureau of International Narcotics and Law Enforcement Affairs comments on
Recommendation A.2 were not responsive and comments on the final report are required. We request
comments to the final report by September 14, 2011. See the recommendations table on page ii of this
report.
                                                                                                        2


If possible, send a .pdf file containing your comments to audjsao@dodig.mil and to Ms. Evelyn R.
Klemstine, Assistant Inspector General for Audits, at klemstinee@state.gov. Copies of your comments
must have the actual signature of the authorizing official for your organization. We are unable to accept
the /Signed/ symbol in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Michael Roark at
(703) 604-9187 (DSN 664-9187) or Ms. Evelyn Klemstine at (202) 663-0372.




_____________________________                    ______________________________
Daniel R. Blair                                  Evelyn R. Klemstine
Deputy Inspector General for Auditing            Assistant Inspector General for Audits
Department of Defense                            Department of State
Office of Inspector General                      Office of Inspector General




cc:
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD
Under Secretary of State for Management
Commander, International Security Assistance Force Joint Command
Assistant Secretary of State for the Bureau of International Narcotics and Law Enforcement Affairs
Director, Defense Procurement and Acquisition Policy
Director, Department of State Bureau of Administration, Office of Logistics Management, Office of
    Acquisitions Management
Director, Defense Contract Audit Agency
Director, Defense Security Cooperation Agency
Assistant Secretary of the Army for Acquisition, Logistics and Technology
    Deputy Assistant Secretary of the Army (Procurement)
Commander, U.S. Army Space and Missile Defense Command/Army Forces Strategic Command
Executive Director, Army Contracting Command
Report No. D-2011-095 (DoD Project No. D2011-D000JA-0009.001)

Report No. AUD/CG-11-42 (DOS Project No. 11AUD3001)                                          August 15, 2011


                   Results in Brief: Afghan National
                   Police Training Program: Lessons
                   Learned During the Transition of
                   Contract Administration

What We Did                                                  program support office until 19 days before the
This is the second in a series of reports to                 contract was awarded and did not formalize an
address requirements in the FY 2011 National                 agreement for managing oversight personnel,
Defense Authorization Act. This report                       communication, and information sharing
addresses whether Government and contractor                  between commands. Until oversight personnel
plans to transfer administration for the Ministry            are in place, DoD will be unable to adequately
of Interior and Afghan National Police training              monitor whether the contractor is performing its
program contracts were complete and feasible.                contractual obligations and achieving the goals
In addition, this report addresses whether DoD               of the program.
was prepared to provide effective management
                                                             We commend DoD for taking some corrective
and oversight of the new DoD contract.
                                                             action in response to a memorandum that we
What We Found                                                issued during the audit (see Appendix F). The
                                                             corrective action included developing strategies
DoD and DOS officials did not develop a
                                                             for hiring and contractor oversight and
comprehensive plan or develop a memorandum
                                                             procedures for approving purchase requests and
of agreement to guide, monitor, and assign
                                                             vouchers. DoD also increased the number of
transition responsibilities. Instead, officials
                                                             oversight personnel for the new DoD contract.
relied on independently developed contractor
plans, some of which were not feasible and did               What We Recommend
not address inherently governmental tasks. This
                                                             Among other recommendations, DoD and DOS
occurred because DoD and DOS lacked
                                                             should develop guidance for planning and
guidance for planning a transition of contract
                                                             conducting complex transitions. DoD should
administration responsibilities from one agency
                                                             also continue filling the management and
to another, which contributed to contractor
                                                             oversight vacancies for the new DoD contract
schedule delays. In addition, DoD officials
                                                             and agree on oversight roles and responsibilities
reported that the incoming contractor did not
                                                             between commands.
have 428 of the 728 required personnel in place
within the 120-day transition period, ∗ which                Management Comments and
placed the overall mission at risk by not
providing the mentoring essential for
                                                             Our Response
developing the Afghan Government and Police                  We revised and redirected draft
Force.                                                       Recommendation A.1 and revised A.2 based on
                                                             management comments. Comments from DoD
Further, at the end of the 120-day transition                officials to the draft were responsive.
period, DoD did not have the personnel in place              Comments from DOS officials were responsive
to effectively oversee the new DoD contract.                 to draft Recommendation A.1 but were not
This occurred because DoD did not establish a                responsive to A.2. Comments on the final
                                                             report are required by September 14, 2011.
∗
  Due to the FY 2011 Act requirements, we reported the       Please see the recommendations table on the
status of the new DoD contract as of April 29, 2011.         next page.
                                                         i
Report No. D-2011-095 (DoD Project No. D2011-D000JA-0009.001)

Report No. AUD/CG-11-42 (DOS Project No. 11AUD3001)                          August 15, 2011


Recommendations Table
               Management                        Recommendations     No Additional
                                               Requiring Comment   Comments Required
 Under Secretary of Defense for Policy       A.1.a-d
 Assistant Secretary of State for            A.1.a-d
 Administration
 Director, Defense Procurement and                                 A.1.a-d
 Acquisition Policy
 Director, Department of State Bureau of                           A.1.a-d
 Administration, Office of Logistics
 Management, Office of Acquisitions
 Management
 Commander, Combined Security Transition                           A.2, B.1.a-b
 Command-Afghanistan
 Executive Director, Department of State     A.2
 Bureau of International Narcotics and Law
 Enforcement Affairs
 Commander, U.S. Forces-Afghanistan                                B.2.a-d
 Director, Defense Contract Management                             B.3.a-b
 Agency


Please provide comments by September 14, 2011.




                                               ii
Table of Contents
Introduction                                                              1
      Objectives                                                          1
      Background                                                          2
      MoI/ANP Training Program Transition                                 3
      Review of Internal Controls                                         6

Finding A. DoD and DOS Did Not Sufficiently Plan for the Transition       7
      Comprehensive Planning Not Conducted                                7
      DoD and DOS Lacked Guidance for Transferring Contract
           Administration Responsibilities                                8
      Schedule Delays Contributed to Incomplete Transition               14
      Improving Future Contract Transitions                              16
      Recommendations, Management Comments, and Our Response             16

Finding B. Additional Personnel Needed for Program Management and
Contract Oversight                                                       20
      Concerns Identified During Fieldwork Resulted in
           Corrective Action, but Additional Action Needed               20
      Recently Established TPSO Lacked Resources to Provide
           Effective Program Management and Oversight                    28
      Agreement to Establish a Cooperative Relationship Not Formalized   29
      Management Action Needed                                           29
      Recommendations, Management Comments, and Our Response             30

Appendices
     A. 	Scope and Methodology                                           33
            Use of Computer-Processed Data                               34
     B. Prior Coverage	                                                  35
     C.	 FY 2011 National Defense Authorization Act, P.L. 111-383
            Section 1235                                                 37
     D. 	Our Response to the FY 2011 National Defense Authorization
            Act Report Requirements for the Afghan National Police       39
     E. 120-Day Transition Period Timeline of Events	                    44
     F. Memorandum	                                                      47
     G. Management Comments on the Memorandum	                           53

Management Comments
     Defense Procurement and Acquisition Policy Comments                 54
     Department of State Bureau of Administration, Office of Logistics
           Management, Office of Acquisitions Management Comments        56
     Combined Security Transition Command-Afghanistan Comments           58
     Department of State Bureau of International Narcotics and Law
           Enforcement Affairs Comments                                  62
     Defense Contract Management Agency Comments                         64
Introduction
Objectives
We conducted this audit in response to a requirement in Public Law 111-383, “Ike
Skelton National Defense Authorization Act for Fiscal Year 2011,” January 7, 2011 (the
FY 2011 Act). The FY 2011 Act required that the DoD IG, in consultation with the
Department of State (DOS) IG, report to Congress within 180 days a description of the
Afghan National Police (ANP) training program that included: (A) components,
planning, and scope; (B) cost to DoD and DOS; (C) allocation of DoD and DOS funding,
oversight, and execution responsibilities; (D) personnel requirements; and (E) an
assessment of the cost, performance metrics, and planning associated with the transfer of
ANP training program contract administration from DOS to DoD. The FY 2011 Act also
required the IGs to conduct followup activities on DoD IG Report No. D-2010-042 and
DOS IG Report No. MERO-A-10-6, “DoD Obligations and Expenditures of Funds
Provided to the Department of State for the Training and Mentoring of the Afghan
National Police,” February 9, 2010 (the February 2010 joint audit report). See
Appendix C for an excerpt of the FY 2011 Act requirements.

Our initial audit objective was to evaluate DoD and DOS efforts to transfer contract
administration for the ANP training program from DOS to DoD. Specifically, we
planned to assess the cost, performance measures, and planning efforts associated with
the transfer to ensure enhanced contract oversight, adequate funding and support, and
effective program management. We also planned to follow up on the February 2010 joint
audit report. However, we revised our audit objectives and scope after meeting with and
obtaining agreement from Senate Armed Services Committee staff members on
January 7, 2011. Specifically, we revised the audit objective for this report to determine
whether the Government and contractor plans to transfer the contract administration of
the Ministry of Interior (MoI)/ANP training program were complete and feasible. In
addition, we determined whether DoD was prepared to provide management and
oversight of the new DoD MoI/ANP training program contract (the new DoD contract).
We also agreed to issue at least two reports that would collectively meet the
congressional intent of the FY 2011 Act requirements and to collect only general
background information necessary to support both reports within the 180-day mandate.
See Appendix D for our response to the FY 2011 Act requirements A-E.

The first report addressed whether DOS properly obligated $1.26 billion of DoD funds in
support of ANP training program requirements and in accordance with Federal laws,
regulations, and reimbursable agreements. 1 That report also addressed whether DOS
approved contractor invoices in accordance with Federal regulations and contract
requirements. Finally, the report provided the status of management actions taken in
response to the recommendations made in the February 2010 joint audit report.

1
 DoD IG Report No. D-2011-080 and DOS IG Report No. AUD/CG-11-30, “DoD and DOS Need Better

Procedures to Monitor and Expend DoD Funds for the Afghan National Police Training Program.”

July 7, 2011.



                                              1

Background
From 2003 through 2006, DOS was primarily responsible for developing, funding, and
executing the ANP training program. In February 2004, the DOS Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management
(AQM), awarded DynCorp International LLC (DynCorp) one of three Civilian Police
contracts to strengthen the criminal justice systems and security operations overseas by
employing law enforcement professionals to support international civilian police
initiatives through the issuance of task orders. AQM awarded multiple DOS- and DoD­
funded task orders under contract S-LMAQM-04-C-0030 to provide police advisors,
mentors, and trainers and to develop and execute the ANP training program. In 2005,
DoD began to assume the lead role on behalf of the United States for reforming the ANP
and in 2006, DoD assumed responsibility for funding the ANP training program, 2 while
DOS continued to perform contract administration responsibilities through reimbursable
agreements between DoD and DOS. Since 2006, DoD has transferred a total of
$1.29 billion to DOS to support the ANP training program. 3

Department of State
Multiple components within DOS were responsible for providing guidance and contract
oversight for the ANP training program. Specifically, the Bureau of International
Narcotics and Law Enforcement Affairs (INL), with financial support from DoD,
continued to direct and provide oversight of the contracted civilian advisors, mentors, and
trainers for the ANP program. Within INL, the Office of Afghanistan and Pakistan
Programs continues to direct and oversee critical foreign assistance programs to support
justice sectors and works closely with other U.S Government agencies, including DoD, to
develop and implement policies for these programs. INL’s Office of Resource
Management maintains financial oversight of INL funds allotted to overseas posts and
provides management support to improve the effectiveness of INL programs. Within the
INL Office of Resource Management, the Afghanistan, Iraq, and Jordan Support Division
receives guidance from the Office of Afghanistan and Pakistan Programs and provides
acquisition and contract management support for those countries. Specifically, the
Afghanistan, Iraq, and Jordan Support Division provided the contracting officer’s
representatives (CORs) and in-country CORs for the Civilian Police contract, as well as
task orders that supported the ANP training program.

AQM manages, plans, and directs the Department’s acquisition programs and conducts
contract administration in support of activities worldwide. AQM officials provide
contract management services including acquisition planning, contract negotiation, cost
and price analysis, and contract administration. The contracting officer for the Civilian
Police contract resides in AQM.



2
  For the purposes of consistency in the report we use the term ANP training program to encompass the
ANP advising, mentoring, and training performed under the DOS Civilian Police contract.
3
  Our first report reviewed whether DOS properly obligated $1.26 billion transferred from DoD for the
ANP training program from November 2006 to December 2010. DoD transferred an additional $30 million
on January 28, 2011.


                                                 2

NATO and Department of Defense
Multiple North Atlantic Treaty Organization and DoD Components are responsible for
providing oversight of the MoI/ANP training program. 4 Under the Commander,
International Security Assistance Force/U.S. Forces-Afghanistan, two subordinate
commands are responsible for supporting ANP development, training, and sustainment:
North Atlantic Treaty Organization Training Mission-Afghanistan/Combined Security
Transition Command-Afghanistan (NTM-A/CSTC-A) and the International Security
Assistance Force Joint Command (IJC). NTM-A/CSTC-A is responsible for training,
mentoring, and equipping the ANP and building MoI capacity, and IJC conducts joint
security and stability operations to improve the effectiveness of the ANP.

Within NTM-A/CSTC-A, two key officials, the Deputy Commander, Police, and Deputy
Commander, Programs, are responsible for supporting the mentoring, training, and
equipping of ANP forces. The Deputy Commander, Police, delegated responsibility for
MoI development to the Assistant Commanding General-Police Development, and
responsibility for institutional support, to include managing training at the majority of the
ANP training sites, to the Combined Training Advisory Group-Police (CTAG-P). Under
the Deputy Commander, Programs, the Training Program Support Office (TPSO)
supports the execution and management of three major training and maintenance program
contracts, one of which is the new DoD contract. TPSO is led by a program manager,
who is supported by three contract product teams. Each team is led by a product
manager, who is also the lead COR. Personnel on each product team assist in providing
essential contract management and oversight functions. The Assistant Commanding
General-Police Development, CTAG-P, and IJC contribute to managing program
requirements and share contract oversight responsibilities.

The Defense Contract Management Agency (DCMA) 5 and the Defense Contract Audit
Agency (DCAA) 6 provide TPSO with personnel for managing the new DoD contract.
DCMA officials are responsible for contract administration, property administration, and
quality assurance for the new DoD contract. DCAA officials are responsible for
approving contractor interim vouchers for provisional payment.

MoI/ANP Training Program Transition
In August 2009, DoD and DOS officials agreed to transfer ANP training program
contract administration responsibility from DOS to DoD. DoD and DOS officials
expected that the new DoD contract would be awarded before the DOS ANP task orders’
period of performance ended and that DoD would transfer all program responsibilities by
January 2010. However, a contractor protested DoD’s acquisition strategy, which led to

4
  For the purposes of consistency in the report we use the term MoI/ANP training program to encompass

the work performed under the new DoD contract W91CRB-11-C-0053, which includes ANP and MoI

advising, mentoring, and training, and life support at 15 locations.

5
  DCMA is a DoD Component under the Under Secretary of Defense for Acquisition, Technology and

Logistics, responsible for providing contract administration services to the DoD community.

6
  DCAA is a DoD Component under the Under Secretary of Defense (Comptroller)/Chief Financial Officer,

responsible for conducting contract audits and providing accounting and financial advisory services for the 

DoD community.



                                                     3

delays in transferring the administration of four DOS and DoD task orders and contracts
to the new DoD contract. Figure 1 shows the four DOS and DoD task orders and
contracts to be replaced by the new DoD contract by the type of service, the task order
and contract number, contractor, and contracting office.

                      Figure 1. DOS and DoD Task Orders and Contracts 

                           Being Replaced by the New DoD Contract

    ANP Trainers, Mentors, and Life Support
            DOS Task Order 5375


        DynCorp                  AQM



            Embedded Police Mentors
             DOS Task Order 2708
                                                          DoD MoI/ANP Training Program Contract
        DynCorp                  AQM                               W91CRB-11-C-0053


                                                              DynCorp              Army Contracting
    Afghan Border Police Trainers and Mentors
         DoD W9113M-07-D-0005-0017
                                                                                      Command
                            U.S. Army Space
      U.S. Training        and Missile Defense
         Center                Command


                MoI Mentors
            DoD W91CRB-10-C-0100


          MPRI             Army Contracting
                              Command




DOS Task Orders for ANP Trainers, Mentors, and Life Support
In February 2004, AQM awarded DynCorp one of three worldwide Civilian Police
indefinite-delivery, indefinite-quantity contracts, valued at approximately $1.75 billion,
which consisted of 1 base year and 4 option years. In August 2005, AQM awarded task
order S-AQMPD-05F-4305 (task order 4305) for ANP training program services and
supplies, including life support, at eight training centers. In July 2008, AQM awarded
task order S-AQMMA-08F-5375 (task order 5375) to continue providing ANP training
program services. 7 On July 16, 2010, AQM extended task order 5375 through June 30,
2011. In September 2010, AQM awarded task order S-AQMMA-10F-2708 (task
order 2708) to provide embedded police mentors. As of April 30, 2011, DOS officials
stated that the total value of this worldwide contract was more than $4.66 billion. The
contract is scheduled to expire January 2012.



7
 Task order 5375 included contractor sub-tasks for advisor services and support services, such as life and
mission support, security services, information technology, and communications support.


                                                     4

DoD Task Order for Afghan Border Police Trainers and Mentors
On September 29, 2008, U.S. Army Space and Missile Defense Command, Army Forces
Strategic Command, issued task order number W9113M-07-D-0005-0017 to
U.S. Training Center (USTC), a Xe subsidiary, for training and mentoring the Afghan
Border Police (ABP). The task order included 1 base year and 3 option years. The total
task order value as of April 30, 2011, was approximately $262.3 million. The task order
is scheduled to expire September 29, 2011.

DoD Contract for MoI Mentors
In April 2010, a U.S. Army Contracting Command Aberdeen Proving Ground contracting
officer awarded contract number W91CRB-10-C-0100, a cost-plus-fixed-fee contract, to
MPRI for mentoring MoI personnel. The contract period of performance was for 1 year.
DoD officials reported that the total contract value was approximately $32 million; the
contract expired on April 30, 2011.

New DoD Contract
As part of the original acquisition strategy for the MoI/ANP training program, DoD
issued two requests for proposal using an existing Army Space and Missile Defense
Command/Army Forces Strategic Command indefinite-delivery/indefinite-quantity
contract that provided program and operations support for the DoD Counter-
Narcoterrorism Technology Program Office (CNTPO). The requests for proposal limited
the competition to the five contractors already on the contract. DynCorp, the outgoing
contractor under the DOS task orders, protested DoD’s acquisition strategy of using the
existing contract, and on March 15, 2010, the U.S. Government Accountability Office
(GAO) sustained the protest. 8

Because of the protest, DoD and DOS officials took action to ensure contracted services
for training and mentoring the ANP continued while DoD revised the acquisition strategy
for the new DoD contract. Specifically, DOS extended 9 task order 5375 until June 30,
2011, and the Army Space and Missile Defense Command/Army Forces Strategic
Command exercised a contract option that extended the ABP task order until
September 29, 2011. DoD revised its acquisition strategy, and on July 16, 2010, DoD
released a full and open solicitation. On December 20, 2010, the U.S. Army Contracting
Command Aberdeen Proving Ground contracting officer awarded DoD contract
W91CRB-11-C-0053, a cost-plus-fixed-fee contract, to DynCorp to provide MoI and
ANP training and mentoring services and life support. The contract included a 120-day
transition period for the contractor to become fully operational, a 2-year base period, and
a 1-year option period, for a total contract value of more than $1 billion. The 120-day
transition period for transitioning the DoD and DOS task orders and contracts into the


8
  GAO Decision B-402349 ruled that the ANP training program was out of the scope of the CNTPO
contract and recommended that DoD conduct a full and open competition or prepare the justification
required to limit the competition.
9
  DOS extended task order 5375 twice to facilitate the transition of contract administration; first, from
January 31, 2010, to July 31, 2010, and second, from August 1, 2010, through June 30, 2011.


                                                      5

new DoD contract began December 30, 2010, and ended April 29, 2011. See Table 1 for
a timeline of the contracting events.

                       Table 1. Timeline of Contracting Events
              GAO Sustained Protest                March 15, 2010
              New Solicitation Released            July 16, 2010
              Contract Awarded                     December 20, 2010
              120-Day Transition Period Began      December 30, 2010
              120-Day Transition Period Ended      April 29, 2011
              DOS Task Order 5375 Expired          June 30, 2011
              ABP Task Order Expires               September 29, 2011

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provide reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. In addition, the U.S.
Department of State Foreign Affairs Manual (FAM) 2 FAM 021.1, requires DOS to
establish and maintain cost-effective systems of management controls over all DOS
operations to ensure that activities are managed effectively, efficiently, economically, and
with integrity, and to provide reasonable assurance regarding the prevention of or prompt
detection of errors, irregularities, and mismanagement.

We identified internal control weaknesses related to the transition of the MoI/ANP
training program. Specifically, DoD and DOS did not have guidance in place to require
the development of a comprehensive transition plan for effectively managing complex
transitions. We also identified that NTM-A/CSTC-A and IJC officials did not have a
formalized agreement establishing a cooperative relationship and communication process
between the commands for managing the CORs and providing consistent oversight of
contractor personnel. We will provide a copy of this report to senior officials responsible
for internal controls at NTM-A/CSTC-A and IJC.




                                             6

Finding A. DoD and DOS Did Not Sufficiently
Plan for the Transition
DoD and DOS officials did not conduct sufficient planning to include developing a
comprehensive transition plan or a memorandum of agreement to guide, monitor, and
assign transition responsibilities. Instead, DoD and DOS officials relied on
independently developed contractor transition-in and demobilization10 plans, some of
which were not feasible and did not address inherently governmental tasks, 11 such as
developing shared use agreements.

DoD and DOS had no guidance for planning the transfer of contract administration
responsibilities from one agency to another, which contributed to contractor schedule
delays. Specifically, the Departments lacked guidance for planning or conducting
complex transition-related activities, such as:

     •	 developing coordinated transition requirements;

     •	 identifying and completing inherently governmental tasks;

     •	 conducting risk assessments and developing risk mitigation strategies;

     •	 defining metrics; and

     •	 establishing a council of senior officials to provide oversight of the transition and
        resolve collaboration and cooperation difficulties.

In addition, DoD officials reported that the incoming contractor did not have 428 of the
728 required trainer and mentor positions in place within the 120-day transition period,
placing the overall MoI/ANP training program mission at risk because the MoI, field
police units, and Afghan training command were not receiving the mentoring essential to
developing a self-sustainable Afghan Government and Police Force. Therefore, DoD
officials made the decision to continue one of the outgoing contracts 12 through
September 30, 2011, and reduced the incoming contractor’s transition award fee. See
Appendix E for a timeline of transition events.

Comprehensive Planning Not Conducted
Despite testimony before the Commission on Wartime Contracting in Iraq and
Afghanistan to ensure a seamless transition of the new DoD contract administration
responsibilities, DoD and DOS did not fully implement planning efforts. Specifically, on
November 24, 2009, DOS officials stated that DoD and DOS had agreed to sign a
memorandum of agreement (MOA) that outlined major tasks, responsibilities, and

10
   A demobilization plan is a drawdown of task order or contract activities.

11
   An inherently governmental task is considered to be an activity so intimately related to the public interest 

as to mandate performance by Federal employees.

12
   The contracting officer had previously initiated action to terminate the contract for convenience.



                                                       7

timelines for the transition. Further, on December 18, 2009, the DOS Assistant Secretary
                                        for INL testified before the Commission on
    DoD and DOS had agreed to
                                        Wartime Contracting in Iraq and Afghanistan that
        sign a memorandum of
                                        DOS intended to develop a comprehensive
   agreement that outlined major
                                        transition plan, which would incorporate the
      tasks, responsibilities, and
                                        contractor’s transition plans while taking into
     timelines for the transition.
                                        account all inventory, security, and life support
services that needed to be transferred. However, DoD and DOS officials did not
complete the MOA or the comprehensive transition plan.

Instead, DoD and DOS officials relied on independently developed contractor transition-
in and demobilization plans to identify transition tasks, responsibilities, and schedules.
DoD officials stated that they relied on the contractor plans because the contractor was
being paid to develop a plan. A DOS official stated that the Department’s demobilization
statement of work (SOW) contained the DOS requirements for transition.

DoD and DOS Lacked Guidance for Transferring
Contract Administration Responsibilities
Neither DoD nor DOS had guidance for transition planning to ensure a seamless and
timely transfer of contract administration responsibilities from one agency to another.
Specifically, the Departments lacked guidance to ensure that they coordinated contractor
transition requirements, identified and completed inherently governmental tasks,
conducted risk assessments and developed risk mitigation strategies, defined metrics, and
established a council of senior officials to oversee and direct Departmental actions.
Because DoD and DOS had no guidance for planning and executing transitions of this
magnitude, we used GAO’s transition planning practices 13 and the U.S. General Services
Administration’s “Transition Training Handbook,” (the Handbook), September 29, 2009,
during our assessment. Although GAO’s transition planning practices and the Handbook
contain guidance on planning and overseeing specific transition efforts, the basic
principles outlined in the guidance can be broadly applied to transfers of contract
administration from one agency to another.

Transition Planning Practices
According to GAO’s transition planning practices and the Handbook, transition planning
should define what requirements will be transitioned and how the transition will be
conducted, to include processes and schedules. Also, planning efforts should include
measures of success, a risk assessment to identify sources of risk that may affect the
transition, and mitigation strategies to address those risks, which could help minimize the
likelihood of both expected and unexpected transition delays. Finally, transition
management is critical to successfully overseeing a transition and requires participation
by all relevant stakeholders. Specifically, the Handbook recommends the development of

13
  GAO reported on transition planning practices in GAO-08-759 “Telecommunications: Agencies Are
Generally Following Sound Transition Planning Practices, and GSA Is Taking Action to Resolve
Challenges,” June 2008, and GAO-06-476 “Telecommunications: Full Adoption of Sound Transition
Planning Practices by GSA and Selected Agencies Could Improve Planning Efforts,” June 2006.


                                                 8

a transition management team, a council of senior officials, and transition managers who
are all responsible for planning, preparing, and executing the transition. During the
                                       MoI/ANP training program transition, we observed
    During the MoI/ANP training        events that contributed to contractor schedule
        program transition, we         delays. DoD and DOS officials could have
         observed events that          prevented some of these delays had they broadly
      contributed to contractor        applied similar guidance to the transition of
           schedule delays.            contract administration for the MoI/ANP training
                                       program.

Requirements for Contractor Transitions Separately Developed
DoD and DOS officials separately developed requirements for DynCorp’s transition-in
and demobilization plans and relied on the contractors to develop plans to complete the
transition based on two different sets of requirements. Specifically, DoD officials
independently developed and included in the contract a vague, one-page list of transition
requirements, which allowed DynCorp officials to determine the tasks necessary to meet
required transition milestones. In comparison, DOS officials developed and provided
outgoing DynCorp officials a seven-page document with detailed demobilization
requirements that included specific tasks DOS expected DynCorp to include in the
demobilization plan. Had DoD and DOS officials coordinated the development of
comparable requirements and included transition priorities, such as when to transfer sites
and personnel, incoming and outgoing DynCorp officials could have developed one
transition-in and demobilization plan to meet both agencies’ needs.

During a January 12, 2011, meeting hosted by DOS, incoming and outgoing DynCorp
officials stated that DynCorp could develop one transition-in and demobilization plan to
                                        facilitate a more efficient transition if DoD and
    DynCorp officials stated that       DOS officials could agree on the requirements and
     DynCorp could develop one          priorities. Yet, DoD and DOS officials could not
           transition-in and            agree upon the transition requirements and
        demobilization plan to          priorities during the meeting. Therefore, a DOS
      facilitate a more efficient       official stated that DOS would wait for DoD to
     transition if DoD and DOS          approve the contractor’s transition-in plan so that
     officials could agree on the       DOS’s contractor’s demobilization plan would
            requirements…               match or mirror DoD’s transition-in plan.
                                        However, DoD officials did not approve
DynCorp’s transition-in plan until January 26, 2011, 27 days into the transition.
Subsequently, DOS officials did not approve DynCorp’s final demobilization plan until
February 9, 2011, which further delayed the transition because DynCorp was scheduled
to begin demobilizing the DOS sites on February 1, 2011. Had DoD and DOS officials
agreed on the requirements and priorities before the transition, DynCorp could have
initiated some of the transition tasks earlier.




                                             9

Inherently Governmental Tasks Not Identified or Completed
DoD and DOS officials did not identify or complete some inherently governmental tasks
during the transition. Specifically, DoD did not ensure that all contracting officers for the
outgoing contracts executed the continuity-of-services clause, and DoD and DOS
officials did not complete a shared-use agreement for life support at the regional training
centers.

Continuity-of-Services Clause
DoD officials did not ensure that the contracting officer for each outgoing contract
executed the continuity-of-services clause to facilitate a more timely and efficient
                                            transition. The Federal Acquisition Regulation
    The continuity-of-services clause       Subpart 37.110 states that the continuity-of­
       should be incorporated into          services clause should be incorporated into
        contracts when contracted           contracts when contracted services are
     services are considered vital to       considered vital to the Government and must
      the Government…or when the            continue without interruption, or when the
   Government anticipates problems          Government anticipates problems during the
          during the transition…            transition from one contractor to another. Once
                                            executed, the clause requires the outgoing
contractor to facilitate an orderly and efficient transfer of authority by working with the
incoming contractor to develop a transition plan with a detailed schedule for phase-in and
phase-out service, including specific dates for transferring responsibilities. The clause
further requires the outgoing contractor to disclose necessary personnel records and allow
the incoming contractor to conduct onsite interviews.

Although the continuity-of-services clause was incorporated into the USTC task order
through its base contract, the U.S. Army Space and Missile Defense Command/Army
Forces Strategic Command contracting officer did not execute the clause and, therefore,
USTC officials were not required to work with incoming DynCorp officials to develop a
coordinated plan early in the transition period. On January 14, 2011, DoD officials stated
that they would not request USTC to develop a demobilization plan for the ABP sites
until they had received DynCorp’s approved transition-in plan. In addition, a CNTPO
official stated that they could not compel USTC officials to provide contact information
for their employees. As a result, incoming DynCorp officials had to independently
develop a transfer schedule for the ABP sites with little knowledge of the sites or USTC’s
operations. Incoming DynCorp officials could have coordinated with USTC officials
earlier in the transition period, had the contracting officer executed the continuity-of­
service clause. Instead, the contracting officer used the January 31, 2011, “Notice of
Partial Termination for Convenience,” to direct the contractor to submit a plan to
transition services to the incoming contractor and stated that the DynCorp plan for the
new DoD contract would subsequently be provided.

Upon receiving DynCorp’s transition-in plan, USTC officials submitted a demobilization
plan on February 14, 2011, which recommended changes to DynCorp’s schedule, 46 days
into the transition period. Most significantly, DynCorp planned to conduct property
inventories during the same time that USTC scheduled to in-process students at the ABP



                                             10

sites. USTC officials stated that the in-processing of students is a chaotic and manpower-
intensive time period. To ensure training was not disrupted, USTC officials
recommended that DynCorp revise its schedule to conduct inventories during a more
manageable time in the training cycle. Subsequent to these events, DynCorp and USTC
officials worked together to modify the schedule for conducting property inventories and
other transition tasks.

Shared Use Agreements for Regional Training Centers
DoD and DOS officials did not develop or complete a shared use agreement for some of
the regional training centers. Although DoD and DOS officials discussed the
development of a shared use agreement in October 2010, as of May 2, 2011, officials had
not developed an agreement for the shared use of the regional training centers. An
agreement between the agencies is needed because some of the courses in the DOS rule­
of-law programs, 14 specifically the Justice Sector Support Program and Corrections
System Support Program, are also taught at those centers. The incoming contractor,
DynCorp, is also providing life support services such as food, lodging, and security to
DOS contractor personnel residing at those centers. DoD officials stated that instead of
developing a reimbursement agreement with DOS officials to reimburse DoD for life
                                        support services, as of May 2, 2011, DOS was
  The MoI/ANP training program          working with the DoD contracting officer to
  may not receive a benefit for the     potentially modify the new DoD contract to allow
      DoD funds being used to           DynCorp to separately track and directly bill life
  provide life support for the DOS      support costs to DOS. Until this matter is
    contractors co-located at the       resolved, the MoI/ANP training program may not
           training centers.            receive a benefit for the DoD funds being used to
                                        provide life support for the DOS contractors co­
located at the training centers. DoD may also be in violation of the purpose statute, 15
which requires that entities apply appropriations only to the objects for which the
appropriations were made, except as otherwise provided by law.

Risk Assessments and Risk Mitigation Strategies Not Conducted
DoD and DOS officials did not conduct risk assessments or develop risk mitigation
strategies. DoD and DOS officials could have identified the transfer of property, security
clearances, and air support as potential sources of risks and developed mitigation
strategies if they had conducted risk assessments.

DoD and DOS Officials Did Not Identify Property as a Potential Risk
Before the contract award, DoD and DOS officials did not identify the transfer of
property, such as weapons, vehicles, and other equipment, as a potential source of risk,
nor did they develop risk mitigation strategies for this issue. Instead, officials relied on
the contractor to determine what property would transfer, resulting in the identification of
property that would not transfer to the incoming contractor late in the transition. For
example, the demobilization SOW that DOS provided to DynCorp required the contractor

14
   Afghanistan Rule of Law programs are designed to develop justice sector institutions, improve the

Afghan government's credibility and legitimacy, and reduce support for insurgent factions.

15
   Section 1301(a) title 31, United States Code.



                                                    11

to determine what property and equipment could transfer, including how it was to be
procured and what licenses might be required. On February 7, 2011, 39 days into the
transition, DOS officials announced that some of the weapons the outgoing contractor
used could not transfer to the new DoD contractor because the weapons were purchased
with DOS funds. 16 To mitigate this issue, on March 7, 2011, 67 days into the transition
period, DOS officials developed a memorandum of understanding to temporarily transfer
DOS-purchased weapons to DoD and the new contractor for the duration of the new DoD
contract. Had DoD and DOS officials identified the transfer of property as a potential
source of risk, officials could have developed risk mitigation strategies to allow for a
more seamless transition.

The announcement by DOS officials that some property may not transfer led to a
discussion between USTC and DoD officials regarding the weapons at the ABP sites.
USTC officials stated that the weapons used at these sites were owned by USTC and also
would not transfer to the incoming contractor. Although on May 4, 2011, DynCorp
officials stated that they were still unsure whether they would need to purchase additional
equipment for the ABP sites to adequately cover their requirements, on June 20, 2011,
DoD officials confirmed that they had enough weapons, temporarily transferred from
DOS, to cover all contract requirements, including the ABP sites.

DoD and DOS Did Not Identify Security Clearances for Transferring Personnel as
a Potential Risk
Before the contract award, DoD and DOS officials did not identify security clearances for
transferring contractor personnel as a potential source of risk, nor did they develop risk
mitigation strategies for this issue. Instead, not until late in the 120-day transition period
did DoD and DOS officials identify concerns with differences in security clearance
procedures for transferring contractor personnel.

On March 14, 2011, 74 days into the transition, DoD and DOS officials announced that
there were security clearance concerns associated with the transfer of personnel from
DOS to the DoD contract caused by differences in how the two agencies process
clearances. According to DoD officials, when DOS processes a security clearance for a
contractor employee, the employee’s background check remains “open” until the
employee is terminated. However, DoD officials stated that when an individual has an
open background check, DoD cannot initiate the background check process, which is
required prior to issuing an employee a DoD Common Access Card. 17 Therefore, each
contractor employee transferring from the DOS to the DoD contract had to be removed or
terminated from the DOS’s system before DoD could initiate a background check. Not
until April 4, 2011, 95 days into the transition, did DoD and DOS officials develop a
strategy to mitigate this issue. Specifically, DoD officials granted transferring employees
a 90-day waiver to the requirement to have a Common Access Card, providing DOS
officials time to close the employee’s background check and allowing the initiation of the
16
   Both DoD and DOS provided funds for task order 4305.
17
   According to the Deputy Secretary of Defense’s November 26, 2008, Directive-Type memorandum
08-006 “DoD Implementation of Homeland Security Presidential Directive-12,” the Common Access Card
is DoD’s Federal credential for employees and contractors, granting physical access to all Federally
controlled facilities and information systems.


                                                 12

DoD background check process. DoD and DOS officials could have developed risk
mitigation strategies to allow for a smoother transition had officials identified the transfer
of contractor personnel security clearances as a potential source of risk prior to contract
award.

DoD Did Not Identify Aviation Transportation Support as a Potential Risk
DoD officials did not identify aviation transportation support as a potential source of risk
or develop risk mitigation strategies for this issue prior to contract award. Although DoD
officials discussed the review of the existing air support agreement with DOS in
October 2010, DoD officials did not identify the lack of reliable air support for
transporting DoD contractors and DoD personnel as a potential source of risk. Instead,
                                    DoD officials relied on the contractor to obtain its own
   Neither DoD nor contracted       air support while simultaneously planning and
    air resources were readily      conducting transition tasks. Specifically, the new
   available at the beginning of    DoD contract required the incoming contractor to
           the transition.          obtain its own air support or coordinate with DoD for
                                    air movement or convoy to and from each training
site, but neither DoD nor contracted air resources were readily available at the beginning
of the transition. Since DOS officials were already providing air support for outgoing
DynCorp officials, DoD, DOS, and DynCorp officials met on several occasions to
discuss whether DOS could also provide air support to DoD and its incoming contractor,
DynCorp. DOS officials stated that they had already committed their air resources to
meet other requirements. Not until February 28, 2011, 60 days into the transition period,
did DOS officials agree to provide air support for the transition on a space available
basis, only.

DynCorp’s lack of reliable contracted air support during the early stages of transition
contributed to schedule delays for the ABP sites. For example, DynCorp’s transition-in
plan stated it would begin site surveys at the ABP sites on February 3, 2011, and town
hall meetings on February 26, 2011. However, on February 28, 2011, a DoD official
stated that DynCorp had not yet arrived at the ABP sites. Subsequently, DynCorp
subcontracted with an aviation contractor on March 3, 2011, 63 days into the transition
period. Had DoD officials identified aviation transportation support as a source of risk
prior to contract award, officials could have developed risk mitigation strategies to allow
for a more timely transition.

Performance Metrics
DoD and DOS officials did not develop documented metrics to assess the execution of
the transition while ensuring desired program outcomes were achieved. Although no
metrics were documented in a comprehensive transition plan, DoD officials stated that,
for the transition to be successful, there must be no loss in training days or the number of
Afghans trained, and the transition must be completed within the 120-day time frame.
Despite schedule delays, DoD officials reported on May 2, 2011, and DynCorp officials
confirmed on June 1, 2011, that no loss of training days or reduction in the number of
Afghans trained occurred during the transition period.




                                             13

Council of Senior Officials
DoD and DOS did not establish a council of senior officials from all relevant
stakeholders to oversee and direct Department actions or resolve collaboration and
cooperation issues. Establishing a council of this nature was particularly relevant to the
transition of the MoI/ANP training program because DoD and DOS have historically
encountered challenges when collaborating on Afghanistan-related projects. For
example, during June 18, 2008, testimony before the Subcommittee on National Security
and Foreign Affairs, Committee on Oversight and Government Reform, House of
Representatives, “U.S. Efforts to Develop Capable Afghan Police Forces Face
Challenges and Need a Coordinated, Detailed Plan to Help Ensure Accountability,” a
GAO official 18 testified that DoD and DOS had a history of being unable to effectively
collaborate and coordinate on previous Afghan National Security Forces projects. The
official stated that despite a prior 2005 audit recommendation for DoD and DOS to
develop a coordinated and detailed plan to sustain the Afghan National Security Forces,
the agencies developed no such plan. Specifically, in 2007, DoD prepared a five-page
plan to meet the GAO recommendation, but it did not identify or discuss DOS’s roles or
responsibilities. Additionally, DOS did not contribute to the development of DoD’s
document or develop a plan of its own.

Instead of assigning a council of senior officials from both Departments, DoD and DOS
relied on a joint working group 19 comprised of program and contract management
officials. The group found it difficult to reach agreements on various issues, which in
turn, affected the transition and contributed to schedule delays. For example, during a
January 27, 2011, joint working group meeting, DoD officials requested that DOS
officials permit the outgoing contractor to proceed with demobilization. However, DOS
officials stated they would not permit the contractor to proceed until they reviewed the
contractor’s demobilization plan and cost proposal and received $30 million in funds
requested from DoD to fund the remainder of the transition. 20 This decision contributed
to DynCorp being unable to begin demobilization until February 9, 2011, 41 days into the
transition period. Transition coordination difficulties could have been reduced and
resolved timely had DoD and DOS created a council of senior officials with the proper
level of authority to direct Departmental actions commensurate with the complexity of
the MoI/ANP training program.

Schedule Delays Contributed to Incomplete Transition
As previously discussed, the lack of guidance to ensure DoD and DOS developed a
                                       coordinated and comprehensive transition plan
    The incoming contractor was        contributed to contractor schedule delays. In
       unable to achieve full          addition, the incoming contractor was unable to
  operational capability within the    achieve full operational capability within the
     120-day transition period.        120-day transition period.

18
   The GAO Director of International Affairs and Trade testified on June 18, 2008, GAO-08-883T.

19
   The interagency working group included, but was not limited to, officials from NTM-A/CSTC-A; 

DCMA; CNTPO; Army Contracting Command; DOS INL; DynCorp; USTC; and MPRI.

20
   Under the DOS task order, DoD provided funds for the ANP training program through an MOA.



                                                  14

As a result, DoD officials decided to continue the outgoing contract for the ABP sites
through September 30, 2011, to ensure training continuity. In addition, the DoD
contracting officer took action to reduce the incoming contractor’s transition award fee
for its inability to meet some of the contract requirements.

Contractor Did Not Obtain Full Operational Capability
DoD officials decided to continue the outgoing contract for the ABP sites through
September 30, 2011, based on DynCorp, the incoming contractor, being unable to meet
its contractual requirements to obtain full operational capability for the MoI/ANP training
program within 120 days. According to contract requirements, full operating capability is
defined as the contractor having all mentors and trainers at assigned duty locations and
prepared to conduct training or mentoring. Although DynCorp was successful in
transitioning life support functions at all 15 locations, 21 as of April 29, 2011, TPSO
officials reported that DynCorp had not filled 428 of the 728 required trainer and mentor
positions, which included the ABP trainer positions. See Table 2 for the contract
requirements and the actual number of unfilled contractor positions leaving the contractor
unprepared to conduct training and mentoring within the 120-day transition period.

                 Table 2. Contractor Personnel Prepared to Conduct Training
                               and Mentoring Within 120 days
                                    Contractor        Actual            Unfilled
                                     Personnel      Contractor        Contractor
                                     Positions       Personnel         Positions
                                     Required         On-Site
     MoI Mentors                              178                  89                      89

     Trainers and Advisors ∗                  173                  47                     126

     Fielded Police Mentors                   377                 164                     213

     Total                                    728                 300                     428
     ∗ Includes trainers at the ABP sites.

     Source: TPSO official


Although no training classes were cancelled, DoD officials reported that DynCorp’s
inability to have all contractor personnel in place impacted the overall mission of the
MoI/ANP training program because the MoI positions, field police units, and Afghan
training command were not receiving the mentoring essential to developing a self-
sustainable Afghan Government and Police Force.



21
  DynCorp transferred all life support functions from the incumbent contractors by April 29, 2011, except
for security services at one site, which were extended until May 28, 2011.



                                                    15

Award Fee Reduced
On May 26, 2011, the DoD contracting officer took action to reduce the $601,671 award
fee for the transition period by $326,204. The contracting officer also requested that
DynCorp officials develop a plan to rectify the staffing issues and obtain full operating
capability by August 1, 2011, at no additional fee to the Government. On June 1, 2011,
DynCorp officials agreed with the award fee reduction and submitted their staffing plan.
A DynCorp official attributed the staffing issues to three SOW revisions, issues with
transitioning security clearances from DOS to DoD, and personnel-related issues such as
reduction in salaries and leave time. DynCorp officials further stated that although
staffing levels did not reach projected requirements, they managed the staffing to ensure
that all training requirements were met and no training had to be cancelled.

Improving Future Contract Transitions
By developing and implementing guidance similar to the principles outlined in GAO’s
transition planning practices and the Handbook, DoD and DOS officials could have
allowed for a more seamless and timely transition. The lack of guidance for transition
planning was previously reported in DoD IG report number D-2009-114, “Transition
Planning for the Logistics Civil Augmentation Program IV Contract,” September 25,
2009. Specifically, the report cited that DoD had no policies or procedures for
transferring services from one contract to another. Further, the development of policies
and procedures for planning and overseeing a transition between agencies could also be
used to manage more complex intra-agency transitions when multiple contracts are
involved.

Developing guidance for the transfer of contract administration is particularly important
in overseas contingency operations in which complex transitions from one agency to
another are likely to continue to occur. For example, as stated in the 2010 Department of
State and U.S. Agency for International Development Quadrennial Diplomacy and
Development Review, with the planned transition to Afghan-led security in 2014, civilian
departments and agencies will be taking on tasks previously performed by the military.
Therefore, developing policies for conducting and planning transitions from one agency
to another could also result in enhanced cooperation between DoD and DOS and further
assist the Government of Afghanistan in stabilizing and securing the country.

Recommendations, Management Comments, and Our
Response
Revised and Redirected Recommendations
We revised and redirected draft Recommendation A.1 based on management comments.
We revised the recommendation to clarify that DoD and DOS should collaborate the
development of Departmental guidance to address the issues identified in this report. We
also consolidated two of the recommendation subparts. Further, we redirected the
recommendation to the Under Secretary of Defense (Policy) and the Assistant Secretary
of State for Administration to ensure that the guidance includes all aspects of conducting



                                            16

a complex transition to include program, financial, and contract management, oversight,
and execution.

We also revised draft Recommendation A.2 based on management comments. We
clarified that the intent of the recommendation is for DoD and DOS to develop an
agreement and procedures for DOS to reimburse DoD for services provided under the
new DoD contract, not the previous DOS contract.

A.1 We recommend that the Under Secretary of Defense (Policy) in coordination
with the Director, Defense Procurement and Acquisition Policy, and the Under
Secretary of Defense (Comptroller)/Chief Financial Officer and the Assistant
Secretary of State for Administration, in coordination with the Assistant Secretary
of State for the Bureau of Resource Management and Chief Financial Officer
collaborate the development of Departmental guidance for conducting complex
transitions from one agency or entity to another. The guidance should include all
aspects of conducting a complex transition such as program, financial, and contract
management, oversight, and execution. The guidance should also include the
development of a comprehensive transition plan that considers:

        a. developing coordinated and comprehensive requirements for contractor
transition-in and demobilization.

       b. defining responsibilities for managing the transition to include identifying
inherently governmental tasks and ensuring that the proper level of oversight is
commensurate with the program's complexity and can effect Departmental action.

        c. identifying risks and developing risk mitigation strategies to minimize the
likelihood of expected and unexpected delays.

       d. identifying measures of success to assess the execution of the transition
while ensuring desired program outcomes are achieved.

Defense Procurement and Acquisition Policy Comments
The Director, Defense Procurement and Acquisition Policy, agreed with the
recommendation and provided additional comments. The Director, requested that the
recommendation be redirected and revised to include program management, financial
management, and contract execution and administration functions in the transition
guidance. The Director also contacted us and requested that we clarify whether the intent
of the recommendation was for DoD and DOS to develop joint or Department-specific
guidance.

AQM Comments
The Director, AQM, agreed with the recommendation to coordinate with DoD for
developing guidance that includes as many of the areas addressed in this report as
practicable. The Director, stated that although DOS currently coordinates with DoD, the
guidance will provide a framework for the development of transition plans.


                                           17

Our Response
The Director, Defense Procurement and Acquisition Policy’s and the Director, AQM’s
comments on the draft recommendation were responsive. However, we revised and
redirected the recommendation based on the Director, Defense Procurement and
Acquisition Policy’s, and the Director, AQM’s comments. The intent of the
recommendation was for DoD and DOS to collaborate the development of Departmental
guidance that could be used for planning and conducting complex transitions from one
agency to another or from one entity to another within the Department. We also modified
the recommendation to ensure all aspects of conducting a complex transition (such as
program, financial, and contract management, oversight, and execution) were included in
the guidance. As a result, we redirected the recommendation to the appropriate
Components within each Department. We request the Under Secretary of Defense
(Policy) and the Assistant Secretary of State for Administration provide comments on the
final report.

A.2 We recommend that Commander, Combined Security Transition Command-
Afghanistan and the Executive Director, Department of State Bureau of
International Narcotics and Law Enforcement Affairs, determine and implement
the most appropriate method for the Department of State to reimburse DoD for the
shared use of the regional training centers to ensure that DoD complies with all
applicable appropriations law for the new DoD contract.

CSTC-A Comments
The Deputy Commander for Programs, responding for the Commander, stated that the
Army Contracting Command-Rock Island and DOS have drafted a MOA that will allow
DOS to place funds on the DoD contract to reimburse DoD for shared use of the training
centers. The Deputy Commander for Programs, stated that the MOA should be
completed by August 5, 2011.

Our Response
The Deputy Commander for Programs’ comments were responsive, and no additional
comments are required.

INL Comments
The Assistant Secretary, responding for the Executive Director, disagreed with the
recommendation. The Assistant Secretary, stated that the recommendation was
duplicative of a recommendation in the third draft report titled, “Afghan National Police
Training Program Would Benefit From Better Compliance With the Economy Act and
Reimbursable Agreements,” July 25, 2011. The Assistant Secretary also stated that the
recommendation does not specify the amount of funds to be reimbursed to DoD.

Our Response
The Assistant Secretary’s comments were not responsive. The third report recommends
DOS reimburse DoD for appropriations that were improperly used for DOS programs,
under the previous DOS contract. The intent of Recommendation A.2 in this report is for


                                            18

both Departments to determine how DOS will reimburse DoD for shared use of the
training centers under the new DoD contract. Based on the Assistant Secretary’s
comments, we revised recommendation A.2 to clarify that the recommendation is
applicable to the new DoD contract. We request that INL provide comments to the final
report by September 14, 2011.




                                          19

Finding B. Additional Personnel
Needed for Program Management and
Contract Oversight
Although DoD took action to address some of our concerns identified during fieldwork,
as of April 29, 2011, at the end of the 120-day transition period, DoD did not have all
personnel in place to effectively manage or oversee the new DoD contract. 22
Specifically, of the positions directly or indirectly supporting the new DoD contract:

     •	 TPSO officials had not filled 7 of the 12 positions designated to provide program
        and contract management;

     •	 DCMA officials had not filled three of the six positions designated to provide
        contract administration;

     •	 NTM-A/CSTC-A officials had not nominated 22 of the 56 CORs that they were
        responsible for providing; and

     •	 IJC officials had nominated none of the 114 CORs that they were responsible for
        providing.

This occurred because DoD did not establish TPSO until December 1, 2010, 19 days
before the contract was awarded. In addition, NTM-A/CSTC-A and IJC officials lacked
a formalized agreement establishing a cooperative relationship and communication
process between the commands for managing the CORs and providing consistent
oversight of contractor personnel. Without adequate staffing and command agreements,
DoD will be unable to adequately monitor whether the contractor is performing its
contractual obligations and achieving the goals of the MoI/ANP training program.

As a result of concerns identified during fieldwork, we issued a memorandum to
NTM-A/CSTC-A and IJC documenting these concerns. In response to the memorandum,
DoD officials took corrective action to improve controls over purchases and contractor
payments, develop oversight strategies, and increase the number of oversight personnel
for the new DoD contract.

Concerns Identified During Fieldwork Resulted in
Corrective Action, but Additional Action Needed
Although DoD officials took corrective action in response to concerns we identified
during fieldwork, additional action is still needed to establish and fully implement

22
   Based on our agreement with the Senate Armed Services Committee staff members on January 7, 2011,
we reported the status of the program management and contract oversight structure at the end of the
contractual transition period. A separate audit of DoD’s implementation of the program may be announced
at a later date.


                                                  20

effective program management and oversight of the new DoD contract. During our
initial fieldwork, we identified that:

     �	 TPSO and DCMA officials did not have the program management office fully
        staffed;

     �	 TPSO officials lacked policies and procedures for approving contractor purchase
        requests and vouchers and for receiving inventory; and

     �	 NTM-A/CSTC-A and IJC officials lacked an oversight strategy to include
        identifying the appropriate number of CORs, developing a command reporting
        structure, or ensuring means for more secure communications.

On February 12, 2011, we discussed these preliminary concerns with NTM-A/CSTC-A
and IJC officials. Subsequently, on March 4, 2011, we issued a memorandum to
NTM-A/CSTC-A and IJC documenting those concerns that required immediate action
(see Appendix F for the memorandum and Appendix G for management’s response to the
memorandum). On March 30, 2011, NTM-A/CSTC-A and IJC officials responded,
citing management actions taken and providing their hiring and oversight strategies, a
project management plan to manage the remainder of the transition tasks, and procedures
for approving purchases and vouchers. We commend NTM-A/CSTC-A and IJC officials
for taking these actions; however, additional work is needed to sustain the program and
contract management structure and ensure adequate oversight of the contractor during the
life of the new DoD contract.

TPSO and DCMA Not Fully Staffed
During the transition, TPSO and DCMA were not fully staffed with permanent, full-time
employees to support the new DoD contract, and TPSO experienced several changes to
its organizational structure and to product team assignments. 23 For example, the
January 20, 2011, TPSO organization chart included 11 total positions, 7 of which were
vacant. 24 Two of those seven vacancies were assistant product manager positions for the
new DoD contract.

Between January 20 and March 26, 2011, TPSO officials continued to make changes to
their staffing numbers and organizational structure. On February 20, 2011, the total
number of TPSO positions increased from 11 to 16, and on March 26, 2011, the total
positions increased to 17. The TPSO management structure also changed significantly
during the transition. Between January 20 and March 26, 2011, the number of TPSO
positions directly or indirectly related to the new DoD contract increased from 7 to 12.
See Table 3 for the changes in the number of (1) positions within TPSO, (2) positions
relating to the new DoD contract, and (3) vacancies throughout the transition. 25

23
   TPSO product teams include the MoI/ANP training program, the Afghan Technical Equipment 

Maintenance Program, and the Afghan National Security Sector Development and Fielding Program.

24
   For the purposes of this report we define a vacant position as one that is not staffed or staff that were 

identified but not yet deployed to Afghanistan. 

25
   The number of TPSO positions does not include the number of DCMA positions.



                                                       21

            Table 3. Changes to the TPSO Organization During the Transition
            Date               Total               Total          Total Number of         Total Number
                             Number of          Number of         Positions Related        of Positions
                               TPSO               TPSO             to the New DoD         Vacant Related
                              Positions          Positions             Contract             to the New
                                                  Vacant                                  DoD Contract
     January 20, 2011              11                7                      7                    4
     February 20, 2011             16                7                     11                    5
     March 26, 2011                17                9                     12                    6
Source: TPSO

Between January 20, 2011, and March 26, 2011, the number of DCMA positions directly
or indirectly related to the new DoD contract also increased from three to six. As of
March 26, 2011, three of the six positions were vacant, including one of the two
administrative contracting officers assigned to the contract.

Throughout the transition, TPSO officials also continued to make changes to the product
teams. For example, the MoI/ANP product manager changed three times from
January 20 to April 30, 2011, and the product manager for the other two programs
changed twice during the same period. Until TPSO has filled all planned staffing
positions, DoD may be unable to effectively monitor whether the contractor is
performing its contractual obligations and achieving the goals of the MoI/ANP training
program.

Management Actions Taken, but Additional Actions Are Needed
In response to concerns identified throughout our fieldwork, a NTM-A/CSTC-A official
stated they would temporarily fill vacancies with military personnel already deployed to
Afghanistan. TPSO officials also began pursuing long-term staffing strategies to recruit
civilians, such as instituting job opportunity announcements and partnering with
recruiters and recruiting programs such as the Army Quality Federation and the Civilian
Expeditionary Workforce program. To increase staff continuity, TPSO officials began
pursuing staffing strategies aimed at hiring qualified, experienced acquisition personnel
for terms of greater than 12 months.

We commend TPSO officials for taking action to remedy their staffing issues; however,
further action is necessary to ensure effective and sustainable program management and
contract oversight of the new DoD contract. As of April 30, 2011, TPSO had seven
vacancies and DCMA had three vacancies, all of which directly or indirectly related to
the new DoD contract. TPSO and DCMA should hire the remaining number of personnel
needed to fill the vacant positions.26 Within 6 months, NTM-A/CSTC-A officials should
also review the program management and contract oversight structure to determine


26
  On June 25, 2011, TPSO officials reported that they had filled the remaining positions directly related to
the new DoD contract.


                                                     22

whether it is operating effectively or should be modified to more effectively meet the
MoI/ANP training program requirements.

Oversight Procedures for Contractor Purchases and Vouchers
Were Not Established
DoD officials did not develop procedures for reviewing and approving the contractor’s
purchases and vouchers until March 2, 2011. Although procedures were developed prior
to April 30, 2011, DoD could have improved planning efforts for providing oversight of
the contractor’s processes.

Procedures for Purchase Requests and Inventory Acceptance
Not Established
Prior to March 2, 2011, TPSO officials had not established processes or procedures for
validating contractor purchase requests or inspecting and accepting the receipt of
inventory. In accordance with the terms and conditions of the contract, the contractor
was only required to obtain written approval from the COR for purchases exceeding
$5,000. TPSO officials stated that they generally planned to rely on the contractor to
purchase and receive its own inventory. However, by allowing the contractor to purchase
and receive items without oversight, DoD may not be able to ensure that items the
contractor purchased are allowable within the terms of the contract or that items are
properly accounted for in the inventory.

The need for oversight of contractor purchases and voucher approval is further supported
by the control weaknesses identified during our review of DOS contractor oversight, as
discussed in the first report. 27 We found that a single contractor employee was allowed
to submit a purchase request, and receive and account for the same item in the inventory,
without Government oversight. A lack of separation of duties also increases the
Government’s risk of fraud, waste, and abuse. During our fieldwork, we accounted for
all items selected for review during a non-statistical sample of the DOS contractor’s
inventory at five training locations. However, the DOS lead in-country COR stated that
there were approximately $9 million in unresolved discrepancies during an October 2009
inventory. 28

The risk to DoD that items the contractor purchased may not be allowable or that items
may not be properly accounted for is further increased by the contractor’s lack of a
DCMA-approved purchasing system. 29 From 2007 through 2010, DCAA officials
27
   DoD IG Report No. D-2011-080 and DOS IG Report No. AUD/CG-11-30, “DoD and DOS Need Better
Procedures to Monitor and Expend DoD Funds for the Afghan National Police Training Program,” July 7,
2011.
28
   As a result of the discrepancies, we reissued and redirected Recommendation B.1 to INL in the first
report. DOS officials responded stating that the inventory was completed in May 2011, and that the
differences between the inventory and the property book will be reconciled.
29
   Federal Acquisition Regulation Subpart 44.302, states that the administrative contracting officer shall
determine the need for a contractor purchasing system review based on, but not limited to, the past
performance of the contractor and the volume, complexity, and dollar value of subcontracts. The review
provides the administrative contracting officer with a basis for granting, withholding, or withdrawing
approval of the contractor’s purchasing system.


                                                    23

reported deficiencies in DynCorp’s business systems, to include labor accounting, billing,
purchasing, and other direct cost systems. In addition, in a June 6, 2010, memorandum,
the DCMA Corporate Administrative Contracting Officer disapproved DynCorp’s
purchasing system. A DCMA review team initiated a followup review of the system in
October 2010, but then suspended the review because the team identified recurring
internal control weaknesses early in the review process. The DCMA Corporate
Administrative Contracting Officer issued a second memorandum on November 1, 2010,
stating that the system would remain in a disapproved status.

Voucher Review Process Not Established
Prior to March 2, 2011, TPSO officials had not established a process or developed
procedures for reviewing the contractor’s vouchers prior to approval for provisional
payment. During our initial fieldwork, TPSO officials stated that they planned to rely on
DCAA to review vouchers prior to payment. DCAA officials stated that while they will
conduct an initial review of costs before payment, they have only 5 days to review the
accuracy of a voucher; therefore, they will likely be unable to perform a 100-percent
review of costs during that period. Further, DCAA officials stated that they may or may
not review 100 percent of the costs charged subsequent to payment. 30

During our review of the DOS oversight of DynCorp, as discussed in the first report,
DOS officials conducted limited invoice reviews prior to payment and identified control
weaknesses related to the contractor’s invoicing process. Specifically, DOS officials
stated they rejected a high percentage of the contractor’s other direct cost and
reimbursable invoices. We reviewed the DOS officials’ rationale for all rejected invoices
through February 7, 2011, and found that officials rejected some of the invoices because
the contractor had not provided sufficient supporting documentation or had not obtained
an in-country COR approval for purchase requests. DOS officials also rejected invoices
containing duplicative requests for reimbursement or unallowable charges. TPSO’s
implementation of a similar voucher review process prior to provisional payment could
reduce the risk of improper payment or waste before they occur.

As previously discussed, the risk to DoD that the contractor may claim costs that are not
allowable is further increased by the systemic internal control weaknesses DCAA
officials identified in the contractor’s billing system. The deficiencies and internal
control weaknesses increase DynCorp’s risk for producing inaccurate invoices. 31




30
   While DCAA may not review 100 percent of costs charged, DCAA officials stated that they do perform
additional audit procedures throughout the life of the contract to determine if such costs are allowable,
allocable, and reasonable in accordance with the Federal Acquisition Regulation and contract terms. For
example, DCAA officials stated that they perform random physical verifications of employees and
materials. DCAA officials also stated that they plan to conduct direct cost testing every six months for the
new DoD contract.
31
   DynCorp could submit either an invoice or voucher for payment. For the purposes of this report, these
terms are interchangeable.


                                                     24

Management Actions Taken, but Additional Actions Are Needed
In response to preliminary concerns discussed at the February 12, 2011, briefing,
NTM-A/CSTC-A in coordination with DCMA officials, issued a “Guide for Government
Approval & Oversight of Contractor Purchasing & Invoicing,” (the Guide) on March 2,
2011. The Guide delineates the roles and responsibilities for each DoD organization and
position for performing oversight of contractor purchasing and invoicing. The
organizations and positions noted in the Guide include the Procurement Contracting
Officer, Administrative Contracting Officer, CORs, TPSO, and DCAA. The Guide states
that the procurement contracting officer will approve all invoices after concurrence with
TPSO. The Guide also states that every contractor purchase request, regardless of dollar
amount, will be validated by an assistant COR and approved by the administrative
contracting officer. Although the Guide does not provide detailed procedures for
providing oversight of the contractor’s inventory receiving process, it states that the
assistant COR is responsible for confirming that purchased items are properly annotated
in the contractor’s property system upon arrival of the item at the site. Additionally, the
assistant COR is responsible for validating that the item matches what was approved on
the purchase request and that the item is properly documented in the contractor’s property
book system.

In addition to the Guide, the contracting officer issued a contract modification on
February 15, 2011, that requires additional Government oversight of contractor purchases
                                        by both the COR and the administrative contracting
       Within 6 months, NTM-            officer. The modified contract requires the
     A/CSTC-A, in coordination          contractor to obtain written validation from the
    with DCMA and IJC officials,        COR and approval from the administrative
      should assess whether the         contracting officer or procurement contracting
         procedures are being           officer for purchase requests exceeding a unit cost
     effectively implemented and        threshold of $5,000, a cumulative cost of $25,000,
      make modifications to the         and for purchases that require the issuance of a
      procedures, as necessary.         subcontract valued greater than $50,000. Officials
                                        updated the Guide on April 27, 2011, to include
additional controls on purchases. The updated Guide states that due to the importance of
cost oversight, the contractor will provide justification letters to the administrative
contracting officer for all purchased items that fall under the threshold values defined in
the contract. We commend DoD officials for taking immediate action to develop policies
and procedures but, as stated in the Guide, they need to evaluate and update
implementation of the procedures to ensure they have the desired effect. Within
6 months, NTM-A/CSTC-A, in coordination with DCMA and IJC officials, should assess
whether the procedures are being effectively implemented and make modifications to the
procedures, as necessary.

DoD Lacked an Oversight Strategy
Although NTM-A/CSTC-A officials tracked the status of each identified COR position,
such as whether an individual had been nominated or trained, the appointment status, and
the redeployment date, prior to March 24, 2011, officials had not defined an oversight
strategy. Specifically, NTM-A/CSTC-A and IJC officials lacked an oversight strategy


                                            25

that identified the total number of CORs required, a command structure for reporting, or
assurance of an appropriate means of communication through which personnel could
report the results of that oversight. Although DoD officials developed an oversight
strategy and procedures in response to our memorandum, they still were unable to fill the
number of identified COR positions.

Total Number of CORs Not Identified
IJC and NTM-A/CSTC-A officials were in various stages of identifying and nominating
CORs for their respective pillars of the new DoD contract. 32 For example, the Assistant
Commanding General-Police Development officials identified the total number of CORs
needed but were still in the process of nominating those CORs. In addition, IJC officials
stated that they were still in the process of determining the number of CORs needed.
Furthermore, CTAG-P officials stated that they had identified the number of CORs
needed at the life support locations; 33 however, they were still in the process of
determining the number of CORs needed to provide contractor oversight at other
locations. CTAG-P officials also stated that they had neither established a formal
command reporting structure nor defined contractor oversight responsibilities.

Guidance and Communication Processes Were Needed
We interviewed DoD transition assistants 34 at five of the regional training centers still
under the operational control of the outgoing DOS contractor. The transition assistants
stated that while they will eventually be appointed as CORs under the new DoD contract,
they had received little guidance as to their responsibilities. The transition assistants also
stated that some of the regional training centers did not have Non-Secure Internet
Protocol Router Network access. 35 As a result, the transition assistants were using
commercial e-mail to communicate with their management. Thus, some oversight
personnel lacked an appropriate method of sending and receiving contract files or
contract modifications, which could contain sensitive information.

Management Actions Taken
In response to preliminary concerns discussed at the February 12, 2011, briefing and our
subsequent March 4, 2011, memorandum, NTM-A/CSTC-A, DCMA, and IJC officials
developed and issued “Contracting Officer Representative (COR) Strategy,” (the COR
Strategy) March 24, 2011, which provided CORs guidance on their roles and
responsibilities. For example, the COR Strategy stated that the COR is required to
conduct independent examinations and reviews of contractor services and processes in
accordance with the contract requirements. Further, those responsibilities require
32
   The MoI/ANP training program contract is composed of three pillars−ANP training site support
(managed by CTAG-P), MoI mentoring (managed by the Assistant Commanding General-Police
Development), and the embedded police (or fielded) mentors (managed by IJC).
33
   As of January 18, 2011, there were 15 life support locations at Adraskan, Bamiyan, Central Training
Center Kabul, Gardez, Helmand, Herat, Jalalabad, Kandahar, Konduz, Lonestar, Mazar-e-Sharif, Mehter
Lam, Sherbeghan, Shouz, and Spin Boldak.
34
   The DoD transition assistants were deployed to multiple regional training centers to observe contractor
operations.
35
   Non-Secure Internet Protocol Router Network is an unclassified but sensitive global network to support
unclassified data communications services for DoD.


                                                    26

oversight personnel to be on location on a routine basis to interact with contractor
personnel and military units. The COR Strategy also stressed the importance of
maintaining documentation on contractor compliance or noncompliance. In addition, the
COR Strategy defined the COR chain of command for reporting contractor performance,
procedures for elevating contractor oversight concerns, and the process for
communicating those concerns. Finally, the COR Strategy provided a listing of all 15 life
support locations and their connectivity status to support NTM-A/CSTC-A officials in
actively pursuing Non-Secure Internet Protocol Router access where possible.

Also in response to our concerns, DCMA officials reported that NTM-A/CSTC-A and
IJC had identified that 170 COR positions were needed to provide oversight of contractor
operations (a 1 to 4.48 ratio of Government-to-contractor personnel). 36 DCMA officials
developed quality assurance checklists for food services, maintenance, and security based
on the most recent modified SOW and distributed those checklists to the CORs on
March 26, 2011. DCMA officials also developed and distributed three training and
mentoring checklists to the CORs. As of April 25, 2011, DCMA officials stated that all
appointed CORs had received the most recent SOW, quality assurance checklists, and
contract modifications necessary to perform their duties.

Further Management Actions Needed
Despite management actions taken, as of April 29, 2011, NTM-A/CSTC-A, IJC, and
                                    DCMA officials did not have all CORs nominated,
   IJC had not identified and       trained, or appointed. 37 Specifically, of the 170 COR
     nominated any of their         positions identified, only 34 CORs were nominated
      required 114 CORS.            by NTM-A/CSTC-A and IJC and appointed by
                                    DCMA. 38 As shown in Table 4, of the 136 vacant
COR positions, IJC had not identified and nominated any of their required 114 CORs.




36
   Although DoD identified 170 total COR positions, 1 individual can serve in 1 or more positions or
locations. The 170 COR positions identified include 15 oversight positions for life support. Based on the
February 2011 modified SOW, the contract had a requirement for 762 contractor personnel.
37
   NTM-A/CSTC-A and IJC are responsible for nominating each COR, and DCMA is responsible for
appointing them. As of April 29, 2011, all CORs that were nominated had also been appointed by DCMA.
38
   Although DoD had appointed only 34 of the 170 COR positions, the contractor also did not have all
identified positions filled. As of April 29, 2011, the contractor was required to have 728 positions working
at full operational capability on the MoI/ANP training program contract. However, at the time of
independent Government verification, the contractor had only 300 personnel filling those positions. See
Appendix C for further details.


                                                    27

                Table 4. Status of COR Positions as of April 29, 2011
         Component Responsible       Requirement Appointed           Vacant
              for Oversight           Identified
       ACG-PD*                                 21             19            2
       CTAG-P                                  35             15          20
        NTM-A/CSTC-A Subtotal                  56             34          22
       IJC                                    114               0        114
        Total                                 170             34         136
      * Note: ACG-PD - Assistant Commanding General-Police Development

      Source: DCMA spreadsheet


The need for additional CORs puts DoD at an increased risk of being unable to monitor
whether the contractor is performing its contractual obligations. In the short-term,
DCMA officials will perform desk audits 39 to ensure contractor compliance. While desk
audits are better than not having any oversight of contractor performance, they are not as
effective as CORs with on-site knowledge of contractor operations. Also, with the
frequent rotation of civilian and military personnel in an overseas contingency
environment, we are also concerned that desk audits could become the standard means of
performing oversight. Further action is needed to ensure that NTM-A/CSTC-A and IJC
officials have CORs in place throughout Afghanistan and can ensure continuous quality
contractor oversight.

Recently Established TPSO Lacked Resources to
Provide Effective Program Management and Oversight
DoD did not establish a program management office (TPSO) to manage the transition
until December 1, 2010, 19 days before contract award. While we commend DoD
officials for establishing a local program management office to more quickly respond to
                                          changes in MoI/ANP training program
   DoD did not establish a program        requirements, TPSO did not have adequate time
     management office (TPSO) to          or resources to effectively establish a program
      manage the transition until         management and oversight structure. Because
      December 1, 2010, 19 days           the structure was still being established, TPSO
         before contract award.           also did not conduct adequate planning to assign
                                          accountability, establish milestones, and identify
and monitor the completion of critical tasks through the end of the transition period.
Industry best practices stress the importance of project planning and assigning
accountability, particularly during complex interagency efforts. Specifically, proper
project planning should describe, among other factors, lines of responsibility, resources,
and estimated milestones.




39
  According to DCMA, desk audits are document-only reviews used when on-site physical reviews cannot
be accomplished.


                                                 28

For example, TPSO officials could have assigned accountability, established milestones,
and identified and closely monitored critical transition tasks, such as:

   •	 hiring permanent, full-time staff to fill positions;

   •	 delegating contract administration, property administration, and quality assurance
      authority;

   •	 identifying, nominating, and appointing CORs;

   •	 developing contractor oversight policies and procedures; and

   •	 developing quality assurance procedures for the maintenance, security, food, and
      training services SOWs.

In response to our March 4, 2011, memorandum, TPSO officials developed what they
refer to as a program management plan that identified the DoD Components involved in
the MoI/ANP training program and provided general roles and responsibilities for each.
The plan also included a timeline for tasks to be completed through the end of transition
including, among other things, training site transition dates, appointment of contract
oversight personnel, and the transfer of contractor personnel at the training locations.

Agreement to Establish a Cooperative Relationship
Not Formalized
NTM-A/CSTC-A and IJC officials are working toward providing more effective
contractor oversight, as seen by their contributions to the COR Strategy. In addition, on
                                February 9, 2011, we obtained a draft MOA between
    As of April 30, 2011,       NTM-A/CSTC-A and IJC officials. The intent of the draft
    neither command had         MOA was to establish a cooperative relationship for
    formalized the MOA.         managing contract oversight personnel as well as
                                communication and information-sharing across the
commands. The draft MOA also assigns each command responsibilities necessary to
achieve effective contract oversight. However, as of April 30, 2011, neither command
had formalized the MOA. As these commands share responsibilities for MoI/ANP
training and mentoring, it is imperative that they also fully coordinate and integrate their
oversight efforts. Without an MOA to hold the commands accountable for ensuring
cooperation, DoD is at increased risk that it will continue to lack the committed resources
necessary to provide effective management and oversight of the new DoD contract.
NTM-A/CSTC-A and IJC officials should take immediate action to finalize the MOA.

Management Action Needed
As of June 28, 2011, IJC officials stated that they had nominated 23 CORs and another
44 personnel were in the process of completing training. Additionally, NTM-A/CSTC-A
officials stated that they had 48 appointed CORs. Additional work is needed to identify,
nominate, appoint, and deploy the remaining CORs.


                                            29

Although we did not identify guidance dictating the number of CORs needed to provide
adequate contract oversight, the lack of oversight personnel in place is indicative of
recurring issues within the U.S. Central Command area of operations. As previously
reported in multiple GAO and DoD audit reports, DoD continues to have an inadequate
number of personnel to conduct oversight of its contractors. Due to the complexities of
operating in an overseas contingency environment, DoD should continuously monitor the
effectiveness of the program management and contract oversight of the MoI/ANP
training program. With the possibility of frequent rotations of the CORs and DCMA
personnel, it may be difficult for DoD to continuously identify systemic issues with
contractor performance. NTM-A/CSTC-A, in coordination with DCMA and IJC
officials, should hold monthly COR coordination meetings in which personnel from each
command can meet regularly to address oversight issues, continuously review the
adequacy of COR oversight, and monitor the COR nomination, training, and appointment
process to ensure quality coverage of contractor surveillance in Afghanistan.

Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Commander, Combined Security Transition
Command-Afghanistan, in coordination with the Deputy Assistant Secretary of the
Army (Procurement):

       a. Hire personnel to fill the remaining vacant Training Program Support
Office positions.

       b. Within 6 months, review the program management and contract
oversight structure to determine whether it is operating effectively or should be
modified to more effectively meet the Ministry of Interior/Afghan National Police
training program mission requirements.

CSTC-A Comments
The Deputy Commander for Programs, CSTC-A, responding for the Commander,
CSTC-A, stated that hiring actions for the three personnel directly assigned to support the
MoI/ANP training program and two key supporting positions are complete and all
required personnel are in theater except one. The Deputy Commander, also stated that a
staff officer, a financial management analyst and three CORs with extensive quality
assurance experience were added to TPSO. Further, the program management and
contract oversight structure of TPSO has already been adjusted and hiring action has been
initiated to add two financial managers to the Army Contracting Command Rock Island
contracting office. Finally, the Deputy Commander, stated that the management and
oversight structure will be continuously reviewed to determine whether it is operating
effectively or requires modification to meet mission requirements.




                                            30

Our Response
The Deputy Commander for Programs’ comments were responsive. Although the
Deputy Commander for Programs did not discuss the remaining indirect support
positions, a TPSO official stated that these positions were also in the process of being
filled. No additional comments are required.

B.2. We recommend that the Commander, United States Forces-Afghanistan, have
the Deputy Commander, United States Forces-Afghanistan, and the Commander,
Combined Security Transition Command-Afghanistan:

        a. Identify and nominate the remaining contracting officer representatives
required for contractor oversight for the Ministry of Interior/Afghan National
Police training program contract.

       b. Sign the memorandum of agreement to establish a cooperative
relationship and communication process between both commands for managing
contracting officer’s representatives and providing oversight of contractor
personnel.

      c. Within 6 months, in coordination with the Defense Contract Management
Agency, assess whether the “Guide for Government Approval & Oversight of
Contractor Purchasing and Invoicing,” March 2, 2011, is being implemented by
each DoD organization responsible for providing contractor oversight effectively or
whether modifications to the guide are appropriate.

        d. Conduct monthly contracting officer representatives’ coordination
meetings where personnel from each command meet regularly to address oversight
issues, continuously review the adequacy of contracting officer representatives’
oversight, and monitor the contracting officer representative’s nomination, training,
and appointment process to ensure quality coverage of contractor surveillance in
Afghanistan.

CSTC-A Comments
The Deputy Commander for Programs, CSTC-A, responding for the Commander,
U.S. Forces-Afghanistan, stated that they continue to identify, nominate, and train CORs.
As of July 25, 2011, NTMA/CSTC-A had 50 of 53 required CORs, and IJC nominated
31 of 53 CORS, of which 6 have been appointed. The Deputy Commander also stated
that NTM-A/CSTC-A and IJC jointly developed a fragmentary order and issued it to
IJC’s field units to identify and provide necessary audit coverage of the fielded police
mentors, thereby serving as the agreement between the two commands. Additionally, the
“Guide for Government Approval & Oversight of Contractor Purchasing and Invoicing”
was revised to include more specific guidance regarding responsibilities and articulates a
refined process for invoice review. NTM-A/CSTC-A plans to conduct another review in
mid-October 2011. The Deputy Commander further stated that NTM-A/CSTC-A, IJC,
and DCMA conduct weekly meetings to discuss contract oversight requirements, assess
the CORs selection process, and address the CORs fill status. In addition to the weekly


                                            31

meeting, monthly meetings are also conducted with the contractor to review contract
oversight audits and address corrective actions.

Our Response
The Deputy Commander for Programs’ comments were responsive, and no additional
comments are required.

B.3. We recommend that the Director, Defense Contract Management Agency:

      a. Fill the remaining vacant positions directly and indirectly supporting the
Ministry of Interior/Afghan National Police training program contract.

       b. Train and appoint the remaining contracting officer representatives
needed for the Ministry of Interior/Afghan National Police training program
contract after recommendation B.2.a is completed.

DCMA Comments
The Commander for DCMA International, responding for the Director, DCMA, stated
that the remaining vacancies were filled in May 2011. The Commander also stated that
the recommendation implies that DCMA was not appointing CORs when the report states
that all nominated CORs had been appointed. Further, the Commander, stated DCMA
will continue to appoint CORs and a recommendation was not required nor warranted.

Our Response
The Commander’s comments were responsive, and no additional comments are required.
Recommendation B.3.b for DCMA to appoint the remaining CORs logically follows the
recommendation made to the Commander, U.S. Forces-Afghanistan, to identify and
nominate the remaining CORs. Specifically, the recommendation states that DCMA
should train and appoint the remaining CORs once NTM-A/CSTC-A and IJC fully
implement Recommendation B.2.a.




                                          32

Appendix A. Scope and Methodology
We conducted this performance audit from September 2010 through July 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit. The
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

To accomplish our audit objectives and to address the FY 2011 Act reporting
requirements, we held discussions with officials from:

    •   Defense Procurement and Acquisition Policy;
    •   Assistant Secretary of the Army for Acquisition, Logistics, and Technology;
    •   U.S. Central Command;
    •   U.S. Forces-Afghanistan;
    •   DCAA;
    •   DCMA;
    •   NTM-A/CSTC-A;
    •   IJC;
    •   U.S. Army Contracting Command; and
    •   Red River Army Depot.

Additionally, we coordinated with or interviewed DOS officials from the Bureau of
Resource Management and Chief Financial Officer, AQM, and from various INL entities,
including the Office of Afghanistan and Pakistan Programs; the Office of Resource
Management; and the Afghanistan, Iraq, and Jordan Support Division. We also
interviewed DynCorp officials operating under both the DOS Civilian Police contract and
the new DoD contract, as well as contractor officials with MPRI and USTC.

We conducted fieldwork from January 17 through February 13, 2011, at various locations
in Afghanistan including Camp Eggers, Kabul; U.S. Embassy Kabul; and Camp Gibson,
Kabul, as well as regional training centers in Herat; Jalalabad; Kandahar; Konduz; and
Mazar-e-Sharif. We also reviewed a non-statistical sample of physical inventory based
on cost and category and performed both existence and completeness testing of the
sampled inventory items at five of the training centers and found no discrepancies.

We obtained and reviewed the DOS Civilian Police contract, and original and modified
SOWs for task orders 4305, 5375, and 2708. We obtained and reviewed the new DoD
contract, original and modified SOWs, quality assurance checklists, and the quality
assurance surveillance plan. In addition, we reviewed TPSO organizational charts, DoD
guidance for purchase requests, program management, and COR structure, and the
number of COR oversight personnel.




                                           33

We also reviewed sections of the Federal Acquisition Regulation, Congressional
testimony, and DoD reports to Congress on the security and stability in Afghanistan.

To address the FY 2011 Act requirement for assessing the transfer of contract
administration from DOS to DoD, we attended weekly working group meetings where
officials from various DoD, DOS, and contractor organizations discussed issues related to
the transition. We obtained and reviewed draft interagency agreements relating to the
transition. We also observed the joint assessments at the Central Training Center in
Kabul and at the Mazar-e-Sharif regional training center.

We obtained and reviewed the DOS contract modification that provided demobilization
plan requirements. We obtained and reviewed multiple versions of DynCorp’s transition-
in plans; and demobilization plans from DynCorp, USTC, and MPRI. We reviewed the
plans to identify differences and assess each plan’s completeness with respect to
requirements and the feasibility of whether the plans could be completed within the
contracted 120-day transition period. Although we reviewed the DynCorp
demobilization plan for the DOS Afghan Civilian Advisor Support program (task
order 5375), to expedite our review, we did not analyze the DynCorp demobilization plan
for the DOS Embedded Police Mentor program (task order 2708).

Based on meetings attended, discussions held, and documentation obtained, reviewed and
analyzed, we issued eight quick-response e-mails and one memorandum addressing
concerns we identified during fieldwork that required immediate action (see Appendix F
for the memorandum and Appendix G for the response).

Upon completing our fieldwork in Afghanistan, we coordinated with DoD and DOS
officials to address concerns we observed during the audit, provided recommendations,
and verified actions taken, where appropriate. To validate factual accuracy, we also
provided a discussion draft to DoD and DOS officials discussed in this report.

Use of Computer-Processed Data
We relied on data obtained from DCMA officials to determine the number of CORs
identified, trained, nominated, and appointed. Using these data, we non-statistically
sampled COR personnel and verified their nomination and appointment letters were
completed and found no discrepancies. Therefore, we determined that the DCMA data
were sufficiently reliable for the purposes of this report. We also recalculated and totaled
the number of CORs by component and provided our calculations to DCMA officials to
confirm that the calculations were accurate. DCMA officials concurred with our
calculations.

We relied on additional data provided by DynCorp to determine the type and amount of
physical inventory in Afghanistan. Using these data, we non-statistically selected a
sample of inventory, based on cost and category, to review at five regional training
centers in Afghanistan. We performed existence and completeness testing on the
sampled inventory and found no discrepancies. Therefore, we determined that the
DynCorp inventory data were sufficiently reliable for the purposes of this report.


                                            34

Appendix B. Prior Coverage
During the last 5 years, GAO, the DoD IG, the DOS IG, the Special Inspector General for
Afghanistan Reconstruction, and the Special Inspector General for Iraq Reconstruction
issued 13 reports discussing challenges with the ANP training program or contractual
oversight issues. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted DOS IG reports can be accessed at
http://oig.state.gov. Unrestricted Special Inspector General for Afghanistan
Reconstruction reports can be accessed at http://www.sigar.mil. Unrestricted Special
Inspector General for Iraq Reconstruction reports can be accessed at http://www.sigir.mil.

GAO
GAO Report No. GAO-09-280, “Afghanistan Security – U.S. Programs to Further
Reform Ministry of Interior and National Police Challenged by Lack of Military
Personnel and Afghan Cooperation,” March 9, 2009

GAO Report No. GAO-08-661, “Afghanistan Security – Further Congressional Action
May Be Needed to Ensure Completion of a Detailed Plan to Develop and Sustain
Capable Afghan National Security Forces,” June 18, 2008

DOS IG
DOS Report No. AUD/IQO-07-48, “Accounting for Government-Owned Personal
Property Held by Selected Contractors in Afghanistan,” August 2007

DoD IG
DoD Report No. SPO-2011-003, “Assessment of U.S. Government Efforts to Train,
Equip, and Mentor the Expanded Afghan National Police,” March 3, 2011

DoD Report No. SPO-2009-007, “Report on the Assessment of U.S. and Coalition Plans
to Train, Equip, and Field the Afghan National Security Forces,” September 30, 2009

DoD Report No. D-2009-114, “Transition Planning for the Logistics Civil Augmentation
Program IV Contract,” September 25, 2009

DOS IG and DoD IG
DoD Report No. D-2011-080 and DOS Report AUD/CG-11-30, “DoD and DOS Need
Better Procedures to Monitor and Expend DoD Funds for the Afghan National Police
Training Program,” July 7, 2011

DOS Report No. MERO-A-10-06 and DoD Report No. D-2010-042, “DOD Obligations
and Expenditures of Funds Provided to the Department Of State for the Training and
Mentoring of the Afghan National Police,” February 9, 2010




                                           35

DOS Report No. ISP-IQO-0707 and DoD Report No. IE-2007-001, “Interagency
Assessment of Afghanistan National Police Training and Readiness,” November 14, 2006

Special Inspector General for Afghanistan Reconstruction
SIGAR Audit-10-12, “ANP Compound at Kandahar Generally Met Contract Terms but
Has Project Planning, Oversight, and Sustainability Issues,” July 22, 2010

SIGAR Audit-10-11, “Actions Needed to Improve the Reliability of Afghan Security
Force Assessments,” June 29, 2010

SIGAR Audit-09-1, “Contract Oversight Capabilities of the Defense Department’s
Combined Security Transition Command-Afghanistan (CSTC-A) Need Strengthening,”
May 19, 2009

Special Inspector General for Iraq Reconstruction
SIGIR 10-008, “Long-standing Weaknesses in the DOS’s Oversight of DynCorp
Contract for Support of the Iraqi Police Training Program,” January 25, 2010




                                         36

Appendix C. FY 2011 National Defense 

Authorization Act, P.L. 111-383 Section 1235





                      37

38

Appendix D. Our Response to the FY 2011
National Defense Authorization Act Report
Requirements for the Afghan National Police
The FY 2011 Act required the DoD OIG, in consultation with the DOS OIG, to report to
Congress a description of the ANP training program that included: (A) components,
planning, and scope; (B) cost to DoD and DOS; (C) allocation of DoD and DOS funding,
oversight, and execution responsibilities; (D) personnel requirements; and (E) an
assessment of the cost, performance metrics, and planning associated with the transfer of
the ANP training program contract administration from DOS to DoD. See Appendix C
for the complete text.

On January 7, 2011, after meeting with and obtaining agreement from Senate Armed
Services Committee staff members, we agreed to collect only general background
information necessary to support our reports within the 180-day mandate.

(A) A description of the components, planning, and scope of the ANP training
program since the United States assumed control of the program in 2003.

One NTM-A/CSTC-A official stated that the ANP training program included courses for
in-country ANP 40 basic and advanced training and MoI mentoring, as well as life support
and security at the central and regional training center locations. 41

For the purposes of this report, we considered the ANP training program as work
performed under the Civilian Police task orders 4305, 5375, and 2708. To support basic
and advanced ANP training courses, the original DOS SOW for task order 4305 included
requirements for 178 advisors, mentors, and trainers; and task order 5375 included
requirements for 584 advisors, mentors, and trainers. Both SOWs included requirements
for life support services, such as food, security, and maintenance, at eight training
centers. The DOS SOW for task order 2708 included requirements for 308 embedded
police mentors.

For the purposes of this report, we considered the MoI/ANP training program as work to
be performed under the new DoD contract, which included a requirement for 762 ANP
and MoI advisors, mentors, and trainers; and life support at 15 locations, to include food,
security, and maintenance.




40
   ANP components provide internal security to Afghanistan and enforce the rule of law. Primary ANP
components include the Afghan Uniformed Police, the Afghan National Civil Order Police, the ABP, and
the Women’s Police Corps.
41
   We considered ANP training such as leadership, management, and specialized courses, on topics such as
medical, counternarcotics, and criminal investigations, outside the scope of the ANP training program
definition. NTM-A/CSTC-A officials reported that there were 37 ANP training locations throughout
Afghanistan.


                                                   39

(B) A description of the cost to the United States for the ANP training program,
including the source and amount of funding, and a description of the allocation of
responsibility between DoD and DOS for funding the program.

From August 2005 through September 2010, DOS officials obligated approximately
$323.49 million of DOS funds for task order 4305 and approximately $0.98 million of
DOS funds for task order 5375. From November 2006 to December 2010, DOS
obligated the majority of approximately $1.26 billion of DoD funds primarily for DOS
task orders 4305, 5375, and 2708. DoD officials stated that they obligated approximately
$33.97 million for mentoring the MoI through a DoD contract with MPRI, and another
$116.60 million for the training and mentoring the ABP through a DoD contract with
USTC. 42 See the background and Finding A sections of our first report, which addressed
the requirements of the FY 2011 Act regarding the source and amount of funding and a
description of the allocation of responsibility between DoD and DOS for funding the
ANP training program.

(C) A description of the allocation of responsibility between DoD and the DOS for
the oversight and execution of the program.

We addressed this requirement in the background sections of this report and the first
report.

(D) A description of the personnel and staffing requirements for overseeing and
executing the program both in the United States and in theater, including United
States civilian and military personnel, and non-United States civilian and military
personnel, contractor personnel, and nongovernmental personnel.

We were unable to obtain a clear description of the personnel staffing requirements for
overseeing and executing the ANP training program. We did, however, obtain from
NTM-A/CSTC-A officials the statistics shown in Table D-1 for the four outgoing DoD
and DOS contractors as of January 31, 2011. See the first report for a ratio of DOS
officials providing oversight to contractor personnel for task order 5375 and the planned
ratio of DoD officials to contractor personnel for the new DoD contract. 43




42
  We did not verify these amounts.
43
  For additional information, see the narratives for recommendations B.2.a and B.3.e in DoD Report
No. D-2011-080 and DOS Report AUD/CG-11-30, “DoD and DOS Need Better Procedures to Monitor and
Expend DoD Funds for the Afghan National Police Training Program,” July 7, 2011, “Status of DoD and
DOS Implementation of Prior Audit Report Recommendations.” The DOS ratio included contractor
advisor and support services under multiple subtasks. The DoD ratio included contractor trainers, mentors,
and advisors as well as 15 DoD oversight positions for life support.


                                                   40

                 Table D-1. DoD and DOS ANP Outgoing Contractors

                Authorized, Assigned, and In Place as of January 31, 2011

           Contract/Task Order Authorized          Assigned          In Place
           DOS Task Order 5375†               207*                 224                183
           DOS Task Order 2708                308                  300                290
           DoD USTC Contract                  216                  216                177
           DoD MPRI Contract                  117                  110                 99
            Totals                            848                  850                749
            †Note: Includes advisor services only.

            *Note: Authorized positions were reduced in January 2011.


DoD officials identified the number of oversight positions and contractor personnel
required and in place for the new DoD contract as of April 29, 2011. Specifically, DoD
officials identified the need for 170 COR positions and 728 contractor positions. 44
However, as shown in Table D-2, neither the CORs nor contractor positions were fully
staffed. Table D-2 also displays the required number of COR and contractor positions,
the actual number of CORs appointed and contractors in place, 45 and the ratio of
Government officials providing oversight to contractor personnel for each, separated by
command, as of April 29, 2011.

 Table D-2. Government and Contractor Position Requirements, Actual Personnel
  In Place, and Government to Contractor Oversight Ratios as of April 29, 2011
       Command           COR           Contractor          Ratio    Actual         Actual        Ratio
      Responsible    Requirement      Requirement           per     CORs         Contractors      Per
     for Oversight    Identified*      Identified          COR     Appointed      In Place       COR
     ACG-PD†               21             178              8.48       19             89          4.68
     CTAG-P                35              173             4.94          15           47          3.13
     IJC                  114              377             3.31          0           164          0.00
  Total              170               728          4.28           34              300            8.82
 *Note: The COR requirement also includes 15 oversight positions for life support.
 †Note: ACG PD - Assistant Commanding General-Police Development

  Source: DoD OIG and DOS OIG analysis of DoD-provided data


(E) An assessment of the cost, performance metrics, and planning associated with
the transfer of contract administration for the ANP training program from the DOS
to the DoD.


44
   The new DoD contract includes a flexibility clause that allows for the expanding and shrinking of

requirements. As such, the number of contractors required as of a specified date will differ from the 

number required in the original or modified SOW. The 728 contractor positions include advisor, mentor,

and trainer positions only.

45
   TPSO officials provided the amounts for contractor requirements identified and actual contractors in

place. We did not verify this data.



                                                     41

We did not assess the cost associated with the transfer of contract administration of the
ANP training program based upon our agreement with the Senate Armed Services
Committee staff members. However, the new DoD contract included estimated transition
costs for labor, travel, other direct costs, and the award fee associated with transition to
full performance, at approximately $18.5 million. 46 As of April 25, 2011, the contracting
officer stated that DynCorp had not submitted a voucher for those costs.

We obtained from DoD and DOS officials the estimated monthly costs for the ANP
training program, to include DOS task orders 5375 and 2708, at $19 million; and the
DoD MoI and ABP contracts at $3 million each. To estimate the total transition costs for
ANP training and MoI mentors, we applied a graduated rate of 25 percent for each
30-day increment of the 120-day transition to the estimated monthly cost. Because a
portion of the ABP contract was continued through September 2011, we used 100 percent
of their estimated monthly cost for each 30-day increment of the 120-day transition
period. Therefore, we estimated transition costs for all four outgoing contracts and the
new DoD contract to be approximately $85.5 million, as seen in Table D-3.

                 Table D-3. Total Estimated Transition Costs (in millions)
     Contract/Task          Day 0-30        Day 30-60         Day 60-90         Day 90-120           Total
        Order
ANP–5375/2708              $19.00           $14.25               $9.50              $4.75          $47.50

MoI–0010                       3.00             2.25              1.50               0.75              7.50

ABP–0017                       3.00             3.00              3.00               3.00            12.00

MoI/ANP–0053                   N/A              N/A               N/A                N/A             18.50*

     Total                 $25.00             $19.50            $14.00              $8.50          $85.50
*The MoI/ANP–0053 contract estimated the cost-plus-fixed-fee of the 120-day transition to be
approximately $18.5 million. Items in total row do not sum to $85.50 million.

We did not assess the performance metrics per our agreement with the Senate Armed
Services Committee staff members. However, we asked DoD officials about metrics they
would use to determine whether the transition was successful. DoD officials stated that
the transition would be a success if there were no loss in training days, no loss in the
number of trained Afghans, and if it was completed in 120 days. Although we are not
aware of a loss in training days or trainees, DoD had only 20 percent of the CORs in
place, and the contractor had only 41 percent of its personnel in place as of April 29,
2011.

In the “Status of DoD and DOS Implementation of Prior Audit Report
Recommendations” section of our first report, we also assessed DoD’s contactor

46
  On May 26, 2011, the contracting officer for the MoI/ANP training program contract notified the
contractor of a reduction in fee in the amount of $326,204 for failure to achieve full operational capability
by April 29, 2011.


                                                       42

performance standards using the January 2011 modified SOW for the MoI/ANP training
program. We also determined whether the MoI/ANP training program requirements in
the January 2011 modified SOW aligned with the goals, objectives, and priorities in the
Afghan Ministry of Interior 2010 ANP Plan. For additional information, see the “Status
of DoD and DOS Implementation of Prior Audit Report Recommendations,” narratives
for recommendations A.1 and A.2 in the first report.

We assessed the planning associated with the transfer of contract administration for the
ANP training program in Finding A and Finding B of this report.




                                            43

Appendix E. 120-Day Transition Period
Timeline of Events
The following chart is a timeline of transition events that occurred after the U.S. Army
Contracting Command Aberdeen Proving Ground contracting officer awarded DoD
contract W91CRB-11-C-0053 to DynCorp on December 20, 2010. This timeline depicts
some of the major events that occurred during the 120-day transition period.




                                           44

DoD RepoRt No. D-2011-095                                                                                                                                                                                                          DoS RepoRt No. AUD/CG-11-42
                                                                               Ministry of Interior/Afghan National Police Training Contract
                                                                                       120-Day Transition Period Timeline of Events

                                                                                            (December 30, 2010 - April 29, 2011)


                            Jan 26 - DoD approved                                  Feb 7 - DoD officials                                                      Mar 7 - DOS developed a MOU
                            DynCorp's transition-in                                learned that DOS-purchased                                                 temporarily transferring DOS-
                            plan.                                                  weapons would not transfer                                                 purchased weapons to DoD and
                                                                                   to new contract.                                                           DynCorp for the duration of the new
                                                                                                                                                              DoD contract.



 Dec 30 - Army Contracting                           Feb 3 - DynCorp was to begin                                      Feb 26 - DynCorp was to                                                      Apr 4 - DoD officials granted
 Command contracting officer                         site surveys at the Afghan Border                                 begin town hall meetings at                                                  employees transferring from DOS to
 took actions to initiate the                        Police sites, but were unable to                                  the Afghan Border Police sites                                               DoD a 90-day waiver to the Common
 transition period.                                  meet the schedule.                                                but were unable to meet the                                                  Access Card requirement to alleviate
                                                                                                                       schedule.                                                                    security clearance issues.




                                                                                                                                                                                                                                                                           Day 120
                                                                   Day 28




                                                                               Day 35


                                                                                         Day 39


                                                                                                   Day 41



                                                                                                             Day 46

                                                         Day 27





                                                                                                                                                                                                                     Day 95

                                                                                                                                     Day 58


                                                                                                                                                Day 60





                                                                                                                                                          Day 67




                                                                                                                                                                       Day 74

                            Day 13
Day 0




   Jan 12 - DynCorp officials stated they could                              Feb 9 - DOS officials                             Feb 28 - A DoD official stated                                                                             Apr 29 - 120-day transition
   develop one plan if DoD and DOS could                                     approved DynCorp's                                that DynCorp had not yet                                                                                   period ended. DynCorp
   agree on requirements and priorities. DOS                                 demobilization plan.                              arrived at the Afghan Border                                                                               did not meet 120-day
   officials stated that DOS would wait until                                                                                  Police sites. DOS officials                                                                                requirement to achieve full
   DoD approved DynCorp's transition-in plan                                                                                   agreed to provide air support                                                                              operating capability.
   before requesting a revised demobilization                                                                                  for the transition on a space
   plan.                                                                                                                       available basis.


                                     Jan 27 - DOS officials stated they would                                  Feb 14 - U. S. Training                                           Mar 14 - DoD and DOS officials
                                     not permit their contractor to proceed                                    Center officials submitted a                                      announced security clearance
                                     with demobilization until they reviewed                                   demobilization plan, which                                        issues in transferring personnel
                                     the contractor’s demobilization plan and                                  recommended changes to                                            from the DOS to the new DoD
                                     cost proposal and received $30 million                                    DynCorp's schedule.                                               contract.
                                     in funds requested from DoD to fund the
                                     remainder of the transitions.


 A JoiNt AUDit RepoRt by the iNSpeCtoRS GeNeRAl of DepARtmeNt of StAte AND DepARtmeNt of DefeNSe                                                                    AfGhAN NAtioNAl poliCe tRAiNiNG pRoGRAm:   leSSoNS leARNeD DURiNG the tRANSitioN of CoNtRACt ADmiNiStRAtioN
                                                                                                                                               45
46

Appendix F. Memorandum





                  47

48

49

50

51

52

Appendix G. Management Comments on the
Memorandum




                                     Attachments
                                     omitted because
                                     of length.




                  53

Defense Procurement and Acquisition Policy Comments

                                                        Final Report
                                                         Reference




                  Click to add JPEG file

                                                      Revised,
                                                      recommendation on
                                                      page 17




                                 54
Click to add JPEG file




               55
Department of State Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management
Comments




                   Click to add JPEG file




                                  56
Click to add JPEG file




               57
Combined Security Transition Command-Afghanistan
Comments




                  Click to add JPEG file




                                 58
Click to add JPEG file




               59
Click to add JPEG file




               60
Click to add JPEG file




               61
Department of State Bureau of International Narcotics and
Law Enforcement Affairs Comments
                                                              Final Report
                                                               Reference




                    Click to add JPEG file




                                                            Revised,
                                                            recommendation on
                                                            page 18




                                   62
Click to add JPEG file




               63
Defense Contract Management Agency Comments





                 Click to add JPEG file




                                64
Click to add JPEG file




               65
 


 




    66 

                     

                     

                     

                     

                     

                     

                     

                     

FRAUD, WASTE, ABUSE, OR MISMANAGEMENT 

                 of Federal programs
            and resources hurts everyone.



         Call the Office of Inspector General
                      HOTLINE 

                     202-647-3320 

                  or 1-800-409-9926 

        to report illegal or wasteful activities. 

                             

                             

                You may also write to 

              Office of Inspector General 

               U.S. Department of State
                       HOTLINE
                   Post Office Box 9778
                   Arlington, VA 22219
                               

        Please visit our Web site at oig.state.gov
                               

             Cables to the Inspector General 

            should be slugged "OIG Channel" 

                 to ensure confidentiality.
dod report no. d-2011-095                                           dos report no. Aud/cG-11-42




                            Department of State Office of Inspector General
	
                                        2201 C Street, N.W.

                                          Suite 8100, SA-3

                                   Washington, D.C. 20522-0308
	

                           Department of Defense Office of Inspector General
                                        400 Army Navy Drive
                                      Arlington, VA 22202-4704
	

The report is available online at: http://www.dodig.mil and also available at http://oig.state.gov
	
